<html>
<title> - HEARING ON PERSPECTIVES ON HOUSE REFORM: COMMITTEES AND THE EXECUTIVE BRANCH</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 HEARING ON PERSPECTIVES ON HOUSE REFORM: COMMITTEES AND THE EXECUTIVE 
                                 BRANCH

=======================================================================

                                HEARING

                               before the

                         SUBCOMMITTEE ON RULES

                                 of the

                          SELECT COMMITTEE ON
                           HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2003

                               __________

                           Serial No. 108-15

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
95-872                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, MississPpi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., New Jersey
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Pete Sessions, Texas                 Kendrick B. Meek, Florida
John E. Sweeney, New York

                      John Gannon, Chief of Staff

         Uttam Dhillon, Chief Counsel and Deputy Staff Director

               David H. Schanzer, Democrat Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

                         Subcommittee on Rules

                 Lincoln Diaz-Balart, Florida, Chairman

Jennifer Dunn, Washington            Louise McIntosh Slaughter, New 
F. James Sensenbrenner, Wisconsin    York
David Dreier, California             Bennie G. Thompson, Mississippi
Curt Weldon, Pennsylvania            Loretta Sanchez, California
Porter Goss, Florida                 Zoe Lofgren, California
John Linder, Georgia                 Karen McCarthy, Missouri
Pete Sessions, Texas                 Kendrick B. Meek, Florida
Christopher Cox, California, ex      Jim Turner, Texas, ex officio
officio

                                  (II)
?

                                CONTENTS

                              ----------                              

                           MEMBERS STATEMENT

The Honorable Lincoln Diaz-Balart, a Representative in Congress 
  From the State of Florida, and Chairman of the Subcommittee on 
  Rules..........................................................     1
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman of the Full Committee
  Oral Statement.................................................     3
  Prepared Statement.............................................     4
The Honorable David Dreier, a Representative From the State of 
  California.....................................................     7
The Honorable Jennifer Dunn, a Representative From the State of 
  Washington.....................................................     8
The Honorable Louise McIntosh Slaughter, a Representative From 
  the State of New York..........................................     3
The Honorable Jim Turner, a Representative from the State of 
  Texas..........................................................     5

                               WITNESSES

Dr. David King, Associate Professor of Public Policy, The Kennedy 
  School of Government, Harvard University
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40
The Honorable James Schlesinger, Chairman, Mitre Corporation
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Dr. James A. Therber, Professor and Director, Center for 
  Congressional and Presidential Studies, School of Public 
  Affairs, American University
  Oral Testimony.................................................    25
  Prepared Statement.............................................    28
Mr. Donald Wolfensberger, Director, Congress Project Woodrow 
  Wilson International Center for Scholars
  Oral Testimony.................................................    31
  Prepared Statement.............................................    34

                                 (III)

 
 HEARING ON PERSPECTIVES ON HOUSE REFORM: COMMITTEES AND THE EXECUTIVE 
                                 BRANCH

                              ----------                              


                        Thursday, July 10, 2003

                  House of Representatives,
                             Subcommittee on Rules,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
room 2247, Rayburn House Office Building, Hon. Lincoln Diaz-
Balart [chairman of the subcommittee] presiding.
    Present: Representatives Diaz-Balart, Dunn, Dreier, Linder, 
Sessions, Slaughter, Thompson, McCarthy, Meek, Cox, Turner 
also, present Rogers of Kentucky.
    Mr. Diaz-Balart. [Presiding.] I will go ahead and call the 
subcommittee to order. Good morning, everybody. On behalf of 
the Subcommittee on Rules of the Select Committee on Homeland 
Security, I am pleased to welcome a distinguished group of 
witnesses to this second in a series of hearings on homeland 
security and the House committee structure, and more generally 
to receive ideas and proposals from witnesses on ways to 
strengthen the effectiveness of the House of Representatives.
    It is my understanding that Secretary Schlesinger must 
leave, in an hour or so, so in hopes of getting to testimony 
and questions and answers, I will certainly keep my remarks 
brief. We would ask those colleagues who will be joining us to 
do so, as well. All of us recognize the importance of the 
committee system and the vital role that committees play in 
this institution.
    They are, in effect, mini-legislatures. Committees function 
as our centers of policy-making, oversight and education, 
through hearings, particularly, such as today's.
    A principal assignment of this subcommittee is to try to 
ensure as much as possible continued vigor and competence in 
the committee system, specifically as that system addresses 
homeland security issues.
    The subcommittee recognizes that the committee system 
interacts with and affects other important legislative 
functions and activities, such as scheduling in the work of 
conference committees, to help the subcommittee identify and 
sort through some of the key issues that confront the House.
    And to suggest possible proposals or recommendations for 
change, we are pleased to begin today's hearing with one of the 
most distinguished and experienced Federal officials, Dr. James 
Schlesinger, a man who certainly needs no introduction, but I 
will give him one anyway, brief.
    The holder of a Ph.D. from Harvard, Dr. Schlesinger has 
been a high national governmental official in both Democrat and 
Republican administrations.
    For example, he was chairman of the Atomic Energy 
Commission from 1971 to 1973, director of the Central 
Intelligence Agency in 1973, as well, Secretary of Defense 
between 1973 and 1975, and the first Secretary of the 
Department of Energy, between 1977 and 1979.
    Clearly, Dr. Schlesinger brings an extraordinary wealth of 
experience, expertise and informed judgment to this hearing. We 
are particularly interested in Dr. Schlesinger's observations 
concerning his time as the first Energy Secretary in the United 
States, and any parallels that he may see with homeland 
security.
    As Dr. Schlesinger certainly will recall, the Nation 
confronted an energy crisis during 1973 and 1974, and later in 
the decade, as well. There were long gasoline lines throughout 
the nation.
    Neither the executive nor the legislative branches seemed 
really prepared at that time organizationally or procedurally 
to deal effectively with the crisis.
    To many people, there seemed to be an absence of coherence 
or coordination in energy policy-making. The House of 
Representatives considered a number structural approaches to 
the energy issue, and in 1973 and 1974 the Bolling Committee on 
Committee Reorganization proposed an Energy and Environment 
Committee, an idea that never really got off the ground.
    In 1977, Speaker O'Neill created an ad hoc Select Energy 
Committee to coordinate committee action on President Carter's 
National Energy Plan. Three years later, in 1980, the House 
rejected a proposal to consolidate energy jurisdiction in a new 
Energy Committee.
    Instead, the House renamed the Commerce Committee the 
Energy and Commerce Committee. The House opted not to 
consolidate energy jurisdiction in one committee, and energy 
jurisdiction to this day remains somewhat decentralized among 
many standing committees.
    Needless to say, from your perspective, sir, as Energy 
Secretary, this subcommittee welcomes your thoughts on how the 
decentralization of energy jurisdiction in the House affected 
your work in energy policy formulation and implementation.
    And certainly as you reflect on your experience as Energy 
Secretary, as well as your many other forms of public service, 
we would ask that you look at any parallels with today's 
concern on homeland security.
    Like homeland security energy is an issue which certainly 
clearly affects national security, economic security and 
international security. Both produced a sense of crisis in the 
country. Both led to the creation of new Cabinet departments, 
and both are truly consequential issues that will certainly 
affect the Nation for decades. Yet on energy, the House chose 
not to overhaul its committee system, but to make incremental 
adjustments and employ other devices to address the issue.
    On the issue of homeland security, a main question before 
this subcommittee is what options should it consider with 
respect to the committee structure. So we are delighted that 
you have agreed to be before us today, sir, and obviously look 
forward to hearing your thoughts about such issues as the 
interrelationships between the committee structure and the 
administrative structure and congressional oversight, the need 
or lack of need for, in your view, alterations in the committee 
system.
    We have a second panel, a very distinguished panel, which 
we will introduce subsequently. And at this point, before I ask 
Dr. Schlesinger to proceed, let me turn to my distinguished 
ranking member, Louise Slaughter of New York, and ask her for 
any opening statement or comment.
    Ms. Slaughter. Thank you very much, Mr. Chairman.
    I will be very brief, Mr. Schlesinger. It is a delight to 
see you. Certainly, if anybody knows what it is like to create 
a new agency, you do.
    You have had a very significant career in Washington, 
working for both Republican and Democratic administrations. And 
I can't think of anybody who could help us talk about these 
complexities.
    Welcome. We are happy to have you here.
    Mr. Diaz-Balart. Mr. Chairman of the full select committee.
    Mr. Cox. Thank you, Mr. Chairman.
    And welcome Dr. Schlesinger.
    Welcome to our additional witnesses.
    I would like to thank you, Mr. Chairman, for convening this 
hearing and taking the lead on this important examination of 
the rules of the House as they relate to the issue of homeland 
security.
    The recommendations that this subcommittee makes will 
become the recommendations of the full committee to the House 
of Representatives in fulfillment of our charter given by House 
resolution.
    I am especially pleased to welcome Secretary Schlesinger. 
Many of us know him as a friend, colleague and an 
extraordinarily capable leader and public servant. I can think 
of no individual who has had such a profound on the development 
of key United States government agencies as Jim Schlesinger, 
who ably led the Department of Energy, the Central Intelligence 
Agency and the Department of Defense.
    I am particularly eager to hear your thoughts, Mr. 
Secretary, on the challenge you faced in setting up the 
Department of Energy and on how you interacted with various 
congressional committees in the process.
    Since the attacks of September 11, our nation has awakened 
to the global terrorist threat, which is why the Congress early 
this year established the Select Committee on Homeland Security 
and the Homeland Security Appropriations Subcommittee. It was 
to give focus to our previously diverse and disparate homeland 
security activities.
    Today, Dr. Schlesinger and other witnesses will help us 
understand the challenges we face in Congress as DHS has 
organized.
    The past is not always prologued, but we can always learn 
from the distinguished leaders who have gone before us. On the 
opening day of the 108th Congress, Speaker Hastert charged the 
select committee to be the eyes and ears of Congress itself as 
DHS has organized.
    The Speaker noted that Congress itself needed to adapt to 
the largest reorganization of the executive branch in 50 years. 
This need to adapt and to integrate disparate functions is a 
permanent, not a temporary, requirement.
    This Select Committee on Homeland Security already has 
demonstrated that if we are to succeed in the pursuit of the 
President's goal to make the American people safer, the 
critical coordination function with which our committee has 
been challenged must become a permanent condition for the way 
we do business.
    A central recommendation of the recent report on homeland 
security from the Council on Foreign Relations is that the 
Select Committee on Homeland Security be made a permanent 
standing committee of the House of Representatives, with 
authority over all authorizing legislation for the department.
    Currently, there is no other way to bring focus to the 
multiple homeland security activities within and beyond DHS in 
the Federal Government or across multiple committees and 
subcommittees of this Congress.
    And I don't need to remind anyone here that there are 88 
committees and subcommittees of the House and the Senate that 
claim jurisdiction.
    In the House alone, 13 standing committees and 38 
subcommittees claim a piece of the DHS pie. This is simply too 
many. It is not going to work.
    We need to move beyond jurisdictional turf and partisan 
politics to establish a central point for substantive 
jurisdiction over DHS. Without it, we will have continuing 
problems with oversight, legislation and authorization for the 
department.
    Today's hearing I hope will provide insight for those of us 
who are committed to this objective.
    Finally, the Homeland Security Act states that each house 
of Congress should review its committee structures in light of 
the reorganization of responsibilities within the executive 
branch.
    So that is the purpose for your testimony today, and I look 
forward to hearing from our witnesses and their thoughts about 
how the House's efforts to evaluate committee structure compare 
with those of the Senate.
    I thank all of our witnesses for being with us.
    Thank you, Mr. Chairman.

          PREPARED STATEMENT OF THE HONORABLE CHRISTOPHER COX

    Good morning. I would like to thank the subcommittee chairman and 
ranking member for taking the lead on this important examination of the 
rules of the House as they relate to the issue of Homeland security. 
The recommendations of this subcommittee will help to determine the 
future of this Committee and how Congress, as a whole, carries out its 
responsibilities for homeland security.
    I am especially pleased to welcome Secretary Schlesinger. Many of 
us know him as a friend, colleague, and an extraordinarily capable 
leader and public servant. I can think of no individual who has had 
such a profound impact on the development of key United States 
government agencies as has Jim Schlesinger, who ably led the Department 
of Energy, the Central Intelligence Agency, and the Department of 
Defense. I am particularly eager to hear your thoughts, Mr. Secretary, 
on the challenges you faced in setting up a new agency, the Department 
of Energy, and on how you interacted with various Congressional 
Committees in the process.
    Since the attacks of September 11th, our nation has awakened to the 
global terrorist threat. No longer can we rely upon two oceans to 
protect us from attack. Driven by a new sense of vulnerability and 
increased awareness of terrorist threats, Congress acted to protect the 
American people. The President created the Department of Homeland 
Security (DHS) to enhance our capabilities to prevent terrorism, to 
protect our infrastructures, and to respond effectively to any attack 
that--despite our increased vigilance - might occur. The Congress early 
this year stood up the Select Committee on Homeland Security and the 
Homeland Security Appropriations Subcommittee to help focus our diverse 
and disparate homeland security activities on this critical counter-
terrorist mission.
    Today, we will hear from Secretary Schlesinger and other witnesses 
who can help us to understand the challenges we face in Congress as DHS 
is organized. The past is not always prologue, but surely we can always 
learn from past experiences and from the inspired leaders who have gone 
before us. On the opening day of the 108th Congress, Speaker Hastert 
charged the Select Committee to be the eyes and ears of Congress itself 
as DHS is organized. The Speaker noted, too, that Congress needed to 
adapt to the largest reorganization of the executive branch in 50 
years. The need to adapt, to integrate disparate functions behind a new 
mission is a permanent, not a temporary, requirement. This Select 
Committee on Homeland Security already has demonstrated that, if we are 
to succeed on the pursuit of the President's goal to make the American 
people safer, the critical coordination function with which our 
Committee has been challenged must become a permanent condition for the 
way we do business. Currently, there is no other way to bring focus to 
the multiple homeland security activities within and beyond DHS in the 
Federal government or across multiple committees and subcommittees of 
the Congress.
    With the creation of DHS, we brought together 22 agencies and over 
170,000 federal employees. Between both Houses of Congress, there are 
88 separate panels, committees, and subcommittees that claim some 
jurisdictional authority over DHS. In the House alone, there are 13 
standing committees and 38 subcommittees that claim a piece of the DHS 
pie. Of those 13, six have major claims to jurisdiction over DHS. This 
is still too many. Simply put, no servant can answer to so many 
different masters. Not only does the proliferation of committees lead 
to excessive committee assignments for the members, this 
``balkanization'' of jurisdiction can only lead to a weakening of 
institutional expertise and memory. Imagine, too, the amount of time 
Secretary Ridge would spend testifying before six, let alone 88 
separate panels or committees. When would he possibly have time to 
address his responsibilities as head of DHS?
    As I understand it, during consideration of the creation of the 
Department of Energy, there were 83 separate panels or committees that 
dealt with energy matters. I am eager to hear from Secretary 
Schlesinger on how he managed this challenge in his day.
    As members of this House, we must fulfill our Constitutional 
mandate as a co-equal branch of government. We must speak with one 
voice, not 88 or 13 or six. Countless experts have warned us that 
another terrorist attack is a matter of ``when,'' and not ``if.'' When 
that time comes, the American people will want to know what concrete 
steps we took after September 11 to prevent terrorism, to protect our 
infrastructure and to enhance our response to any possible terrorist 
attack. Congress needs to be answering this question every day in the 
work we are doing to exercise responsible oversight over the Department 
of Homeland Security and otherwise to strengthen the broader homeland 
security mission.
    We need to move beyond jurisdictional turf and partisan politics to 
establish a central point for substantive jurisdiction over DHS. 
Without it, we will have continuing problems with oversight, 
legislation, and authorization for the Department. Today's hearing will 
provide insight for those of us who are committed to this objective.
    Finally, the Homeland Security Act states that each House of 
Congress should review its committee structure in light of the 
reorganization of responsibilities within the executive branch. I hope 
to hear from our witnesses on their thoughts about how the House's 
efforts to evaluate committee structure compares with those of the 
Senate.
    I thank all our witnesses for being with us and look forward to 
your testimony.

    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    At this time, I would like to recognize the distinguished 
ranking member of the full committee who is also with us this 
morning, Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Welcome, Dr. Schlesinger.
    We appreciate you being here and assisting us in our task 
this morning.
    I think during the testimony today, as well as other 
hearings that have been held by our subcommittee we hear a 
great deal of discussion about the many technical procedural 
issues such as jurisdiction and referrals and reorganizations.
    But I think the work of this subcommittee and this 
committee as a whole boils down to one essential question and 
that is: Does the Congress take the matter of homeland security 
seriously?
    If the answer is yes, and I sincerely expect that it is, 
then many of the other answers to the questions before this 
subcommittee become apparent.
    First, I think the Select Committee should be made a 
permanent committee.
    Second, I think this committee should have, at a minimum, 
legislative jurisdiction over all matters pertaining to the 
Department of Homeland Security.
    And third, the committee should have oversight jurisdiction 
over the entire Federal Government's approach to homeland 
security matters.
    In spite of some grumbling about jurisdictional turf, it is 
undeniable that this committee to date is making an important 
contribution to both oversight of the Homeland Security 
Department and homeland security in general.
    To date, our critique of the new department has been both 
probing and bipartisan.
    The Project BioShield legislation that we marked up last 
month is a perfect example of the work of this committee.
    Recognizing the importance of that issue, Chairman Cox 
arranged for numerous discussions and briefings with 
administration officials. We held four hearings. We requested a 
classified briefing on the bioterror threat, and we reported 
out a comprehensive substitute amendment.
    While other House committees contributed their particular 
expertises, this committee thoroughly examined the Department 
of Homeland Security's capacity to fulfill its duties under 
that legislation. And we seriously explored the issue of 
whether the BioShield legislation is a sufficient response to 
the bioterror threat.
    Furthermore, if you take homeland security seriously, you 
cannot believe the oversight of this mammoth department can 
properly be conducted by dozens of House committees and 
subcommittees of varying jurisdictions.
    The Select Committee is the single most appropriate 
authorizing committee in the House to oversee the department as 
a whole and focus on departmental management issues.
    Without a single committee dedicated to oversight, 
important issues will not get the attention they deserve.
    Homeland security is a full-time job, it requires a full-
time committee.
    Does this mean that the Homeland Security Committee would 
take over all responsibility for any matter that touches on 
homeland security and usurp the traditional functions of other 
committees?
    I think not. It would be inappropriate to think about 
considering bioterrorism legislation without the input of the 
Energy and Commerce Committee, or rail security legislation 
without the input of Transportation and Infrastructure 
Committee. Homeland security is such a multidimensional topic 
that it lends itself to shared jurisdiction.
    It is the task of this particular subcommittee to begin 
sorting out those details and to come out with a concrete 
proposal to present to the House.
    And Dr. Schlesinger, we appreciate your presence here today 
to assist in that very, very difficult task.
    Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you, Mr. Ranking Member of the Full 
Select Committee.
    At this time I would like to recognize the chairman of the 
House Rules Committee, Mr. Dreier.
    Mr. Dreier. Thank you very much, Mr. Chairman.
    Let me say at the outset, I am particularly pleased, we 
could almost have a quorum of the Rules Committee here in this 
gathering with Mr. Linder and Chairman Diaz-Balart and Ms. 
Slaughter, who are here. In fact, I guess there are more Rules 
Committee members here than there are members of committee. 
Well, it is about even now, I see.
    But let me just say that this is a very, very important 
issue. As I walked into the room and looked at my friend, Jim 
Schlesinger, I was reminded that when I was elected in 1980 
with Ronald Reagan, the first piece of legislation that I 
introduced was a bill calling for the elimination of the 
Departments of Energy and Education. And I have got to say that 
we, obviously, did not succeed in doing those.
    You recall that those were among the priorities that Ronald 
Reagan set forward in his campaign back in 1980. And we are in 
a much different world today, and the idea of the elimination 
of Cabinet-level agencies does not have a lot of appeal.
    And one of the main reasons is that we have tremendous 
needs that must be addressed.
    And we have seen these decisions made, the United States 
Congress established this new Cabinet-level agency, the 
Department of Homeland Security. But to have the input from 
Secretary Schlesinger as well as the other witnesses on this 
issue of ensuring that the United States Congress does it right 
in looking at oversight, using, quite frankly, the last model 
that we have, which was the establishment of the Department of 
Energy as an example of how we should effectively proceed with 
that oversight is a very important, a very, very serious 
matter.
    And that frankly is the reason that under Mr. Cox's 
leadership we established a subcommittee of the Select 
Committee on Homeland Security specifically charged with 
looking at these jurisdictional questions.
    And so I want to express my appreciation to all who have 
been involved in this. And I, quite frankly, believe that from 
an institutional perspective this is probably the most 
important thing that we will do as we look at the challenge of 
the multifarious committees that have been involved in this 
issue.
    And so I am going to begin by expressing my apologies 
because I am going to have to leave. But I assure you that I am 
going to be looking very, very closely at the testimony of al 
the witnesses.
    And I personally thank you, Jim, very much for taking the 
time and effort to be here. And we thank you for your very 
dedicated work and service to the United States of America.
    Mr. Diaz-Balart. Thank you, Mr. Dreier.
    Mr. Thompson?
    Mr. Thompson. Mr. Chairman, I will defer comment until 
later.
    Mr. Diaz-Balart. Ms. Dunn?
    Ms. Dunn. I am so pleased you are here, Dr. Schlesinger. I 
have read your testimony, and comes from a set of experiences 
that span decades. And I think we will gain a lot today from 
hearing what you have to say.
    I, too, have a conflict. The Ways and Means Committee is 
having a markup today, and I am going to have to back and 
forth.
    I want to thank you for the opportunity, Mr. Chairman, to 
make a few remarks this morning.
    We are here today continuing to investigate how this group, 
as an oversight committee, can most effectively and efficiently 
serve our constituents.
    The creation of the Department of Homeland Security is an 
unprecedented undertaking. It is hard enough to oversee the 
coordination of one Federal agency, let alone 22 Federal 
agencies, as you stated, all with different cultures and 
different perspectives and different sets of jurisdiction, with 
their own missions, their own procedures.
    Add to this the competition for oversight, whether it is 
overfunding or operations, and the result is major 
jurisdictional battles among congressional leaders.
    We are involved in the most significant jurisdictional 
reform in the House since the creation of the Department of 
Energy in the 1970's, of which you are well aware, and today we 
have the opportunity to hear from the first Secretary of Energy 
and glean important information from the lessons learned 
through that experience.
    Our job through this process is to make sure that 
inefficiencies and duplications are limited, if not 
nonexistent. The department will only be successful if it is 
empowered to truly coordinate. This means Secretary Ridge 
should not constantly be faced with competing and contradictory 
guidance.
    In my view, it makes the most sense that a department the 
size of Homeland Security will most efficiently carry out its 
mandate only if Congress presents a truly unified message about 
the vision we have for the department, the department charged 
with carrying out the most honorable mission of ensuring the 
safety of the American public.
    Thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you. Thank you very much.
    Ms. McCarthy?
    Ms. McCarthy. Mr. Chairman, I thank you for calling this 
hearing today. I thank Secretary Schlesinger and all of our 
experts for giving of their time and sharing their wisdom.
    I want to yield back my time in deference to their limited 
time so that we might proceed.
    Mr. Diaz-Balart. Thank you very much.
    Mr. Linder? Thank you very much.

    Dr. Schlesinger, thank you very much for your presence, and 
we look forward to your testimony.

   STATEMENT OF HONORABLE JAMES SCHLESINGER, CHAIRMAN, MITRE 
                          CORPORATION

    Mr. Schlesinger. Thank you, Mr. Chairman. And thank you, 
members of the committee, Chairman Cox.
    I don't know how best to proceed. I can go through my 
written testimony. It may be that you prefer that I just go 
through it selectively.
    Mr. Diaz-Balart. As you prefer.
    Mr. Schlesinger. Okay. Let me make some introductory 
comments, then, in response to the earlier comments by members 
of the committee, because they have laid out the problem from 
an intimate knowledge of the House of Representatives, indeed 
of the Congress as a whole. I cannot improve on what Chairman 
Cox has said or Mr. Turner has said or what Congresswoman Dunn 
has said. You well know what the problem is.
    Let me cast my net widely. Go back to 1947 and the creation 
of the Department of Defense. That was easy, congressionally. 
You put together two committees. You put together the Committee 
on the Navy and the Committee on the Department of Army and, 
with the National Security Act, you created a Department of Air 
Force within the new Department of Defense. That was just a few 
committees, and you combined them to create the Armed Services 
Committee. That was easy.
    It was not easy on the other side of the river. If one 
talks about cultural differences, one has really got to 
understand putting the United States Navy together with the 
United States Army, and then throwing in a new Department of 
the Air Force, was an uphill fight. Indeed it took, in a sense, 
20 years, indeed, going down to Goldwater-Nichols before that 
department settled down. But up here on the Hill it was 
relatively easy.
    It was more difficult with the Department of Energy, in 
that we brought in a larger number of components. But once 
again, it was relatively easy because most of the money came 
from what had been the Atomic Energy Commission. We took over 
the personnel system of the Atomic Energy Commission, we took 
over the budgetary system, the acquisition system, from the 
Atomic Energy Commission.
    This time you are gathering together many more components, 
much more equal in size, and in a sense with a greater 
historical tradition.
    Now, up here on the Hill it is immensely more difficult 
because you now have 88 committees with a piece of the action, 
and it will be a burden for the incoming department unless you 
simplify its obligations to the Congress.
    It is not only a question of dealing with 88 committees 
that have some degree of jurisdiction. Those 88 committees have 
staffs, those staffs like individual briefings, they don't like 
to put together the briefings for four or five committees.
    As a result, you are absorbing the time, unnecessarily 
absorbing the time, of people in the new department. You have 
talked in your introductory comments about jurisdictional turf.
    There is no question that that is the problem, and you have 
got to face it. Otherwise, you will burden this new department 
with more weight than it should have.
    Well, let me mention two other things. First, Osama bin 
Laden. Osama bin Laden came out of the war against the Soviet 
Union, and he was convinced that his forces had defeated the 
Soviet Union.
    There were some other contributing factors. But not in his 
mind. In fact, when Saddam Hussein invaded Kuwait in 1990, 
Osama said, Keep these infidel forces out, he told the Saudi 
government. I and my troops from Afghanistan will liberate 
Kuwait.
    A high official of the Saudi government at that point burst 
out laughing, which did not endear the Saudi government to 
Osama.
    But what he has said more recently, since he formed Al 
Qaida, is that--the people will look at the strong horse and 
the weak horse, and they will naturally gravitate to the strong 
horse.
    They will do so naturally, and he assumed that the United 
States of America was a weak horse, based upon our withdrawal 
from Lebanon, based upon our withdrawal from Somalia, based 
upon some faltering efforts in Haiti, based upon our failure to 
support the Iranian government in 1979, and so on.
    I think what he subsequently discovered was that the United 
States was not that weak horse. Between the events in 
Afghanistan and the events in Iraq, we have persuaded not only 
Osama but many of his followers that this country is no 
pushover, that the United States is the most powerful country 
in the world.
    I mention this because we are a democracy. We have a 
constitutional government, we have a Congress, we must adapt to 
demonstrate that not only in terms of military power, but in 
terms of our ability to organize ourselves to respond to a 
threat effectively within the framework of the Constitution 
that we are not a weak horse.
    That, ladies and gentlemen, is your responsibility, facing 
up to this question of jurisdictional turf. Of course, you will 
only deal with half of the problem: There is also the Senate, 
the Senate, as you know, is a rule unto itself.
    Second, going back to the chairman's introductory comments, 
Speaker O'Neill in 1977 established a Select Committee. The 
Senate did nothing like that. As a result, jurisdiction stayed 
with each of the original standing committees, and that led to 
a very slow response in the Senate to the then-President's 
requests.
    As a result, we had a delay of 18 months before we passed 
the components of the National Energy Act. That was not the 
responsibility of the House; that was the responsibility of the 
Senate.
    You cannot solve the problems of the Senate, but you can 
solve, I think, the problems of the House.
    You have 30 subcommittees and 13 standing committees of 
jurisdiction. I trust that you will be able to narrow down what 
the Department of Homeland Security must respond to on Capitol 
Hill.
    I mentioned in my statement that when I started as a 
government official in 1969, government officials were called 
upon infrequently to testify on Capitol Hill. That has changed. 
When I became Secretary of Energy, I discovered that I was 
spending half my time up here on the Hill, dealing with one 
problem or another. And I suspect that Secretary Ridge and his 
principal aids are forced to do that as well. It would be 
desirable if you could cut back on the time that they are 
obligated to deal, not only with the committees, but with the 
staffs of the committees.
    In the old days, the director of Central Intelligence was 
rarely called upon to testify. When I was director, it was the 
job of the oversight committee and the eyes of the chairman to 
keep the director up there at Langley, Virginia, and keep him 
off the Hill. That changed, once again, with the Watergate and 
its ramifications. And as a result, the director now spends a 
considerable time up here on Capitol Hill.
    There are advantages and there are disadvantages in 
consolidation. But that decision is beyond us now. We have 
decided to consolidate in the Department of Homeland Security. 
And it behooves all of us to make that decision work. The 
decision is not to be reargued. I have not heard anyone reargue 
it.
    But the underpinnings for making that new department 
effective are still under dispute. And I trust that this 
subcommittee and the full committee will be able to deal with 
some of the problems.
    As I have indicated in my testimony, creating the 
Department of Energy was child's play compared to creating this 
new department simply because the bulk of the resources came 
from one previously existing agency. Some of the 
responsibilities, particularly in area of price control, were 
shed over the course of the next 3 years. And as a result, we 
have a compact, relatively compact, department.
    What we have here is set of agencies brought together that 
have a long tradition, Customs Service, the Coast Guard, and 
newly formed agencies that have not completely jelled, like the 
Transportation Security Agency. These must be helped along so 
that the disparate cultures of these agencies can be brought 
together.
    I close my testimony with this observation: energy is 
something that is divisive. It is divisive in that there are 
consumers, there are producers, there are consuming states, 
there are producing states, and their interests are not in 
common.
    Moreover, on the international scene, you cannot rely on 
foreign governments to cooperate fully, because of their 
disparate interests.
    The advantage that we have here is that, unlike energy, 
homeland security is an issue that should unite us all. It even 
unites us with most countries abroad, at least with our 
traditional allies who will cooperate with is in attempting to 
reduce the terrorist threat.
    That is different from the divisive tendencies that exist 
in energy. That is an advantage. But just as homeland security 
should unite us all, it also poses a upon the Congress the 
responsibility of helping that unification process.
    Mr. Chairman, I think that those observations will 
substitute for my formal statement.

         PREPARED STATEMENT OF THE HONORABLE JAMES SCHLESINGER

    Mr. Chairman, Members of the Committee:
    I thank the Committee for this opportunity to discuss the 
challenges of creating a new department, relevant to the Department of 
Homeland Security--as the House of Representatives considers possible 
adjustments in the jurisdictions of its standing committees.
    Let me start with this observation. In the 35 years since I first 
became a government official, relations between the Congress and 
executive agencies have changed markedly, indeed, one might say 
radically. In the earlier era, a senior official was called on far less 
frequently to testify. There would be a number of budget hearings--and 
from time to time testimony on some prominent issues. To an extent that 
may seem surprising today, agencies were left to manage themselves. 
Inquiries about specific issues tended to be on an informal basis--
rather than testimony in public session. When I was Chairman of the 
Atomic Energy Commission, all issues were handled by the Joint 
Committee. When I became the Director of Central Intelligence, the 
director was rarely called upon to testify--at least up until the time 
of Watergate--and that was primarily in closed session. In the 
intervening years, that has changed significantly, as congressional 
committees have become more deeply involved in the management of 
executive agencies.
    When we created the Department of Energy, in contrast to those 
older conditions, I found that half my time or more was spent on 
Capitol Hill testifying before various committees. Of course, the 
creation of the Department had involved the jurisdictions of several 
standing committees. In the circumstances of the day, with repeated 
energy events or ``crises'' like the shutdown of oil production in 
Iran, rising gasoline prices, the nuclear trauma at Three Mile Island, 
these committees legitimately wanted a piece of the action--and 
testimony. Moreover, in these last twenty-odd years, the continued 
proliferation of subcommittees has only made the problem worse.
    Subsequent to the dramatic terrorist attack on the United States in 
September of 2001, the decision has been taken to consolidate a whole 
range of security-related activities into the new Department of 
Homeland Security. The longer-term benefits should be substantial. In 
particular, it should gradually reorient the cultures of the agencies 
coming together in the new department towards the post-911 mission of 
homeland security. But there are always costs of such consolidation, 
primarily short-term costs. There will be bureaucratic resistance. 
There are inevitable frictions associated with the movement of 
agencies. There is a clash of cultures that have to be adjudicated and, 
of course, the reconciliation of contrasting personnel and acquisition 
systems. It is not a certainty that the benefits of consolidation will 
outweigh the costs.
    For the Department of Homeland Security, however, that decision is 
behind us. It is now the duty of all of us to do our best to make this 
crucial consolidation work effectively. It is a monumental challenge 
successfully to bring together these rather disparate elements--and 
efficiently combine them in pursuit of the common mission.
    Here is the crucial point to bear in mind. A new government 
department does not spring, like Athena from the brow of Zeus, full 
blown and ready for action. Organizing the department is not 
instantaneous; it takes time. There are many organizational challenges 
and organizational gaps, especially in the early days of a new 
department. The Department of Homeland Security is, in a sense, a 
start-up organization. Contrary to the expectations of too many, there 
will be unavoidable growing pains--as the overall organization 
gradually comes together. No such thing as immediate and complete 
success should be expected. Inevitably, in so complicated an operation, 
there will be unresolved problems and some setbacks. Consequently, for 
those inclined to be critical, there will be all too many targets to 
shoot at. The critics can have a field day.
    In the case of the Department of Homeland Security, there are all 
too many platforms for such criticism. At last count, there were 26 
full committees with jurisdiction--and a total of 88 committees 
including subcommittees. As problems are uncovered or take time to be 
resolved, the opportunities for criticism will mount. Nonetheless, 
since the stake is the security of our homeland, the new department 
deserves support--and not unnecessary carping. To whatever extent the 
Congress can help by simplifying the overlapping committee structure 
that oversees the department, that would be a significant contribution.
    By comparison, the creation of the Department of Energy was 
relatively child's play. The Department was far smaller. Most of the 
budget came from what had been the Atomic Energy Commission. The 
incorporated entities, by and large, had a common mission either 
producing energy or weapons. Additionally, there was the oversight 
function inherited from the Federal Energy Administration. Yet, all in 
all, it was a simpler task. To be sure, the department later ran into 
difficulties. Several secretaries, by direction or personal 
inclination, wanted to disestablish the department. One department head 
was dismissive of the national security functions of the department. 
All that contributed to later and unnecessary disorder.
    Yet, at the time of the department's creation, there was well-nigh 
universal support. In the House, the Speaker, to facilitate the 
formation of a national energy policy, established a Select Committee, 
which brought together on strict time lines the actions of the standing 
committees with jurisdiction. That resulted in quick passage by the 
House of the several components of the National Energy Act. But the 
Senate, which had no similar mechanism, took a long time to decide on 
the components. When the Senate finally acted, and the results went to 
conference, the standing committees in the House were once again 
empowered to assert their jurisdictions.
    Some of those jurisdictional problems will likely afflict the new 
Department of Homeland Security, though others will not. Nonetheless, I 
underscore that we all have a vast stake in the mission and the success 
of this new department. Any weaknesses in the department likely will 
prolong the activities of potential terrorists. So, I repeat: it is a 
monumental challenge to integrate the elements that are being brought 
together in a common mission. Anything that the House can do to help 
the new department, rather than provide additional perches from which 
the department can be criticized would serve the national interest.
    Thank you for your attention. I shall be happy, Mr. Chairman, to 
answer any questions that you and members of the Committee may have.
    Mr. Diaz-Balart. Well, thank you so much, Dr. Schlesinger. 
I have found your remarks to be extremely interesting. And in 
combination with your written testimony, which I had the 
pleasure of reading before, very illustrative as well.
    You emphasized, certainly made reference at various times, 
to your view that we should attempt to cut back on the time 
that certainly the secretary of the new department should have 
to dedicate to Capitol Hill. And the decision, obviously, is, 
as you referred to as well, has been made, and I agree with 
you, that nobody's looking back, that you consolidate as much 
as possible in the executive branch homeland security 
functions.
    But Congress has not made the decision with regard to 
consolidation or lack of consolidation in the legislative 
branch with regard to the oversight functions.
    Could you be, perhaps, more specific with regard to your 
personal preference regarding what we should do with this 
Committee on Homeland Security, perhaps based on your 
experience and the experience that you had in energy with the 
multiple referrals and the lack of consolidation that existed 
at that time, which it has continued, in the energy field?
    Mr. Schlesinger. That is a complex question, Mr. Chairman. 
Let me say, first, when I talk about preserving the time of the 
Secretary, I did not mean that this should interfere with the 
proper oversight by the House or by the Senate of the 
activities of the new department. My problem is that there is 
so much duplication when a senior official comes to Capitol 
Hill and has to deal with five, six or eight committees. That 
does not help the House. That does not help the process.
    You would get better results from that secretary or from 
his senior deputies if you consolidated. So the purpose is to 
economize on the time, rather than to eliminate the function.
    And I would fervently hope that you could bring about that 
legislative miracle of making the Select Committee a standing 
committee, so that there is one committee that has a primary 
responsibility for the Department of Homeland Security. Then 
the department would know where to go, just as the Department 
of Defense now knows where to go: It can go to Armed Services.
    This is much more complicated than was the Energy 
Department or the Defense Department, in that you have so many 
committees up here. I fervently hope that you could create that 
new standing committee so that there is one central place that 
the new department can go.
    There can be referrals, no doubt. There will continue to be 
referrals on specific aspects of the non-homeland security 
functions that have been brought into the new department.
    Obviously, the Coast Guard now must focus more on homeland 
security and less on?I shouldn't say less?proportionately less 
on such things as water safety, rescue operations and the like.
    The Customs agency must focus more on spotting those who 
would bring harmful matter into the country, rather than 
maximizing the take from the revenues due to the Untied States 
government.
    So there must be a change in culture, and that would be 
helped if you could bring these functions together at one 
central point in the House.
    Let me throw in one other observation. We must recognize 
that there will over time be problems that develop with this 
new department; inevitably, all departments have problems. And 
with so many committees and so many staff members, you create 
an opportunity for people chiding the department unnecessarily, 
for there to be those little sound-bit on news programs saying, 
The Department of Homeland Security has failed, and another 30 
second burst.
    Shrink that down, don't allow all these perches for 
criticism. I recognize the oversight responsibility must be 
fully carried out, but don't allow there to be too much 
captious criticism which results from everybody in the House 
having a piece of the action.
    Mr. Diaz-Balart. Thank you, Dr. Schlesinger, so much. 
Again, I found your testimony to be extremely interesting, as 
well as useful. And I think your talent and experience are real 
assets for the United States.
    Ms. Slaughter?
    Ms. Slaughter. Thank you, Mr. Chairman.
    Dr. Schlesinger, I really enjoyed that very much, too.
    There are couple of questions that come to my mind quickly. 
One is that I know that when you set up the Department of 
Energy that FERC was not a part of it, nor was the Regulatory 
Commission. Why was that?
    Mr. Schlesinger. The Nuclear Regulatory Commission?
    Ms. Slaughter. Yes. Did they balk at going in?
    Mr. Schlesinger. Well, no, as a matter of fact, they did 
not balk at going in. The FERC was brought into the department,
    However, at the insistence of the Senate, and particularly 
then-Chairman Ribicoff.
    There was a decision that we would preserve within the 
Department of Energy the commission structure of the old 
Federal Power Commission. The Federal Power Commission was 
placed within the Department of Energy, renamed.
    But what we originally proposed in the legislation was that 
the secretary would have rulemaking authority, that this would 
be published in the Federal Register, that there would be 
public comment. And then, as with other departments, a rule 
would go into force.
    That was too much, at least for the Senate. The House 
agreed to that arrangement, if I recall correctly. And so we 
have within the department the FERC, and the FERC is obliged to 
take into account the advice of the Secretary of Energy.
    The Nuclear Regulatory Commission is a different matter. 
President Carter said to me bring the Nuclear Regulatory 
Commission into the department. I said, Mr. President, this 
department will have enough problems without having to wrestle 
the problems of nuclear regulation. We will leave it outside.
    In retrospect, I think that was a wise decision, 
particularly after the Three Mile Island accident and all of 
the problems that that created for nuclear regulation.
    But as of 2003, we might well do to the Nuclear Regulatory 
Commission what we did with the Federal Power Commission and 
bring it within the Department of Energy.
    Ms. Slaughter. Would you recommend that?
    Mr. Schlesinger. Yes, as a matter of fact, I would. I have 
not thought much about it in 25 years, but?
    Ms. Slaughter. It seemed interesting to me because, as you 
know, the FBI and the CIA and other intelligence agencies are 
not going to be within the Department of Homeland Security. And 
it struck me there was a parallel there. And I think many of us 
are somewhat perplexed as to whether or not they should not be 
a part of Homeland Security. Can you give me a comment on that?
    Mr. Schlesinger. I would comment as follows. The resistance 
of the CIA and the FBI is more formidable than was the 
resistance of the Federal Power Commission.
    Ms. Slaughter. I sure bet that is true.
    Mr. Schlesinger. And you are going to be, as part of your 
responsibilities, it is necessary to see to it that the new 
department has the necessary resources, particularly the 
analytical resources, to deal with the information that comes 
in, both from law enforcement and from intelligence.
    That has been slow to develop. This committee can help with 
that necessary ingredient. Intelligence is a peculiar function 
in that somewhere back there around 1980 there was a proposal 
that we create a Department of Intelligence, and take 
everything out of the Defense Department, out of the State 
Department, out of Energy Department, consolidate it. 
Secretaries don't like that.
    [Laughter.]
    Ms. Slaughter. They don't like it up here when we do the 
others.
    Mr. Schlesinger. They dislike it for the right reasons. 
They need to have some intelligence capability under their own 
command and control.
    Ms. Slaughter. Why is that? It seems to me the most 
efficient and best intelligence agency that you could have, 
regardless of where--you fragment it when you give several 
secretaries the opportunity to have their own intelligence, 
which they may, because they are zealous people, hold unto 
themselves.
    Mr. Schlesinger. As a practical matter, if you look at any 
field commander, any what we used to call CINCs, but we now 
call combatant commanders, they will want to have their own 
internal intelligence committee. In fact, we have these 
national assets, the overhead reconnaissance that commanders 
previously ignored because those were national assets. They 
weren't under their direct control. We have changed that to 
some extent.
    But in order to feel confident, a combatant commander must 
feel confident of the intelligence that he is getting. If it 
comes in from some outside agency, he is not going to feel 
comfortable with it.
    The Secretary of State draws on the Central Intelligence 
Agency. But he has within the department his own intelligence 
in INR. So that he has some degree of confidence that people 
who are responsive to him, rather than to somebody else, are 
giving him what he, as the head of the agency, can regard as 
reliable information. And that is going to go on.
    The basic point that I said when this proposal came up 
before the Congress in 1980 or 1981 commanders or secretaries 
they will squirrel away resources. They will call those assets 
something else other than an intelligence unit. But they will 
be functioning as an intelligence unit. You must recognize that 
these units will exist whether or not they are labeled as 
intelligence units, because the individual secretaries must 
have a feel that they get a clear picture of what the outside 
world is like, and they have people who can deal with the 
Central Intelligence Agency and other intelligence components.
    The critical thing, I think, at this stage is for you to 
see to it that within the Department of Homeland Security there 
is the equivalent of INR in the Department of State, so that 
the Secretary's own subordinates can ask questions about 
information that is coming in from the outside. And at the 
moment, that has not been done sufficiently well.
    Ms. Slaughter. So sort of a competition model, basically.
    Mr. Schlesinger. Yes, going back to your original question, 
Congresswoman Slaughter?
    Ms. Slaughter. Yes.
    Mr. Schlesinger. To bring the CIA and the FBI within the 
Department of Homeland Security is biting off more than you can 
effectively swallow. If it would be unwise to bring the Nuclear 
Regulatory Commission in because of the psychological and 
political problems that nuclear energy endured, this would be 
even harder. Right now, you can afford to wait.
    Ms. Slaughter. They are much stronger than the U.S. 
Congress.
    Mr. Schlesinger. Oh, you are unduly modest.
    [Laughter.]
    Ms. Slaughter. Excuse me even to think that they might not 
be.
    Mr. Schlesinger. I remember one of Mr. Nixon's senior 
advisers back around 1969 or 1970 observing, Well, these people 
on the Hill, they are kind of stupid, you can ignore them. And 
Bryce Harlow, who was then his adviser for congressional 
relations, reared back and said to this particular individual, 
You can say whatever you want to about the people on the Hill, 
but remember that the people on the Hill have the power. And 
that if you ignore them, they will strike back and they can 
bring down an administration.
    And I want to say that that was one of the great unheralded 
predictions in history or commentary.
    Ms. Slaughter. Thank you, Mr. Schlesinger, it has been 
fascinating. Thank you very much.
    Mr. Diaz-Balart. It has been fascinating.
    Ms. Dunn?
    Ms. Dunn. Thank you, Mr. Chairman.
    I am pleased to listen to your testimony and hear you say 
that you think one committee would be more efficient and it 
would certainly cut down on the time that folks have to--
advisers like you and folks like Secretary Ridge have to spend 
testifying on the Hill so that they could spend more time on 
organizing the department and getting done what needs to be 
done.
    I might add to that, though, I think one standing committee 
could be very important from another point of view, and that is 
the point of view of focus on the problem. So that is probably 
more operational. And I think what we have been doing in the 
months since we have organized our select committee has been to 
bring focus to the problem. Not just in the trips that we have 
taken to investigate areas like ports, but also in analyzing 
the credibility and the effectiveness of people who have been 
selected to head the Department of Homeland Security at 
different levels. And I think we have been successful in 
ferreting out some weakness, and therefore assisting Secretary 
Ridge with what he has to do.
    In the testimony, one of the people who is going to be 
speaking to us today, the comment was made something like so 
often reform is just the codifying of the status quo. And I 
guess my question to you, because you have answered most of my 
questions already, do you think we have time to put this whole 
thing together?
    I mean, it is not as if this were a long time in coming, as 
the energy crisis was. I mean, this happened starting on 9/11 
and we had to respond. And we have 1 1/2 years before we move 
from a select committee to a standing committee.
    You mentioned the whole issue of growing pains. And we have 
already witnessed jurisdictional problems, which are to be 
expected. But you say that the other reforms were relatively 
easy. Do you think in the time we have left we can pull it 
together? And if so, do you have any thoughts for this 
subcommittee to make those growing pains a little bit easier?
    Mr. Schlesinger. Well, Congress can, of course, make those 
growing pains much easier if it eases the burden of dealing 
with oversight on the Hill. Not proper oversight, but 
duplicative oversight.
    And I think we have discussed sufficiently the desirability 
of consolidation on the Hill. We talk about the cultural 
problems of bringing together agencies that have had a 
disparate past and integrating them into a new department. 
There are the cultural problems up here on the Hill of these 
different standing committees that have their traditions and 
their powers. And unless we effectively deal with that, the 
components of the department will not be able to focus on the 
newer problems of homeland security, those components will 
continue to respond to the older standing committees and their 
interests.
    So you used the proper expression when you said "focus."
    Do we have time? Well, we must strive to make the 
transition as quickly as we possibly can, and that is the 
responsibility of all of us. We are not going to instantly 
transform these agencies into an integrated whole.
    But we must move quickly, because any gaps that we have are 
going to be exploited by a world of terrorists that is going to 
be around for a long time.
    We are going to take some blows ourselves here in the 
continental United States. We want to move as quickly as we can 
to minimize that, and to be able to respond when such events 
take place.
    Mr. Diaz-Balart. Thank you.
    Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary. And I might add, your testimony has 
been very good. Some of us agree with you that there is a need 
for this committee to be more than select, but we are 
challenged by the issue of jurisdiction and whether or not some 
of the will to release jurisdiction will be forthcoming. I look 
forward to our chairman's leadership in making some of those 
things happen.
    Just for the record, can you more or less repeat the danger 
of this committee not becoming permanent for the sake of 
homeland security and this country?
    Mr. Schlesinger. It is quite simple: It means that you will 
not be helping this new department to become more unified on 
the mission of homeland security, that the agencies that go 
into that department will continue more than is necessary to 
focus on their historic function, and it will tend to preserve 
the existing cultures of those agencies.
    And on the other hand, all of us have a responsibility for 
homeland security. Any failure on the part of the United States 
to bring these agencies into an effective whole are going to be 
noticed and exploited by those who wish the country harm.
    Mr. Thompson. Well said.
    I yield back the balance of my time.
    Mr. Diaz-Balart. Mr. Linder?
    Mr. Linder. Dr. Schlesinger, welcome.
    Mr. Schlesinger. Thank you.
    Mr. Linder. You said earlier on that putting the 
intelligence agencies under one roof would be biting off more 
than you could chew.
    Mr. Schlesinger. The intelligence agencies.
    Mr. Linder. Yes. Has the department bit off more than it 
can chew?
    Mr. Schlesinger. I beg your pardon?
    Mr. Linder. Has the Homeland Department bit off more than 
it can chew?
    Mr. Schlesinger. Only time will tell. Obviously, it is a 
time-consuming process to put together these elements. And 
there will be differences of opinion whether all of the 
elements that went into this new department were essential for 
the department.
    Going back to what Ms. Slaughter said earlier about the 
Nuclear Regulatory Commission, in logic that might belong in 
the Department of Energy, but the costs, the internal costs, of 
bringing it in were deemed, at least at that time, to be too 
great to make that attempt.
    There may have been elements that have been included in the 
department that in retrospect it would have been wise not to 
include.
    But in the overall, we have made the decision to bring 
these elements together. We need to bring these elements to 
focus on the problem of homeland security. And since the 
decision is behind us, let us all work together to achieve that 
outcome.
    Mr. Linder. Don't we always at the Federal level tend to 
overreact?
    Mr. Schlesinger. Well--
    Mr. Linder. For example, does the Homeland Security 
Department need to be in charge of agricultural imports?
    Mr. Schlesinger. I am sorry?
    Mr. Linder. Does the Homeland Security Department need to 
be in charge of agricultural imports?
    Mr. Schlesinger. I am not sufficiently familiar with those 
issues. Of course, you have the various agricultural 
infections. It has long been ruminated that one might use 
biological weapons in order to destroy the crops of country X 
or country Y. Here the country that one might worry about, 
whether it is boll weevil or some biological agent that would 
go after our wheat crops or go after the importation of meat.
    I don't know. That may be one of the marginal elements, Mr. 
Linder. But once again, we have made that decision, and let's 
make it work.
    Mr. Linder. It seems to me that this department could be 
organized on a continuum from one end to be nothing but an 
intelligence organization to inform local governments to the 
other end have a national police force. We are trying to find a 
middle ground here somewhere. If you were going to pick out a 
mission with the primary focus of the Department of the 
Homeland Security, how would you define that?
    Mr. Schlesinger. Well, I think that the department has, in 
the President's message, indicated that what we must do is to 
anticipate through intelligence possible attacks on the United 
States, to respond to such attacks as quickly as we can and to 
mitigate the consequences of those attacks. And that is why we 
have responded. It is at the one pole that you mentioned at the 
outset, which was, you know, to inform local governments.
    Those local governments will need help, and only the United 
States, the Federal Government, can provide that help.
    If we have a nuclear detonation in some place in the United 
States, the local authorities will be overwhelmed, and we must 
have an entity that has thought through that problem and will 
bring to bear the resources of the Federal Government to help 
those local governments. It is not just warning.
    Mr. Linder. Such as FEMA has been doing for years?
    Mr. Schlesinger. It is not only FEMA. The Department of 
Defense has worried this problem continuously, because FEMA 
doesn't have the resources to deal with a major attack on the 
United States; only the Department of Defense has those 
resources. And thus the Defense Threat Reduction Agency has 
worried these problems and has war-gamed these problems. If you 
war-game, you will never know what you are going to encounter, 
but you will be somewhat better prepared to deal with those 
events if you have had such war games.
    What we have here is a problem for the Department of 
Defense being handed this responsibility, because of the posse 
comitatus statute and the desire of the department to avoid as 
far as possible seeming to interfere with local police forces 
and the like.
    The new department will organize not only the warnings to 
those local elements, but have a structure in place that can 
quickly respond and to ameliorate the consequences of an 
attack, and I don't think that FEMA could have done it.
    As you may know, I was on the so-called Hart-Rudman 
Commission, which recommended that we create a Department of 
Homeland Security based upon FEMA.
    What we have now legislatively is much larger than what was 
recommended by the Hart-Rudman Commission. So your question 
goes to the heart of the issue--no pun--goes to the heart of 
the issue of whether or not all of these elements needed to be 
brought in or needed to be brought in initially. And I cannot 
answer that. I think that it is now our responsibility to make 
it work.
    And it is the responsibility of the department to convince 
you and other members of the Congress, as well as the broad 
public, that indeed the creation of this department was a major 
asset for the United States government. And only time will 
tell.
    Mr. Linder. Have you ever seen the schematic of the 
management and leadership of the Department of Homeland 
Security?
    Mr. Schlesinger. Yes. I think I have seen that. It rivals 
that of the Department of Defense.
    Mr. Linder. Thank you very much.
    Mr. Diaz-Balart. Thank you, Mr. Linder.
    Recognizing Mr. Meek.
    We are not using the 5-minute clock. But I would ask the 
members to try to voluntarily keep themselves as though we 
would be using it.
    Mr. Meek.
    Mr. Meek. Any reason why you decided to say that when I 
came into the room?
    [Laughter.]
    I am not long-winded, Mr. Chairman.
    Mr. Diaz-Balart. No, no, no. It had nothing to do with you.
    Mr. Meek. Thank you, Mr. Secretary. I am glad you are here.
    You have a great deal of experiencing in dealing with this 
government. And I am not going to say that we are at crisis 
point right now in the Congress. I think we are just trying to 
figure out how we are going to function from this point on.
    I think the American people are expecting some level of 
focus by the Congress. I say that because I know that you were 
around during the energy field crisis. The President had to 
respond to that in the Congress. I know that two 
administrations prior to his administration saw that this was 
important and it needed direction and focus not only by the 
Congress, but by the executive branch.
    As we start to wrestle amongst ourselves in our own locker 
room on whose in charge or whose not in charge, the last time 
this rules subcommittee met, we had another panel. And I shared 
with them that everyone that sits on the Homeland Security 
Committee is going to be held directly responsible for any 
attacks on the homeland. And the American people want to make 
sure that there are members of the Congress that have not only 
been briefed, but educated on the issues of protecting the 
homeland.
    Now we can get into all kinds of metaphors and 
personalities. Many say a war against terrorism. I say an 
effort against terrorism because in every war, folks feel that 
on both sides they need to do things to keep up the status quo 
of the war.
    Share we me the importance of protecting the homeland, 
above it all. Let's leave the Congress for a minute. But why it 
is important--I know you have said it 10 times over that it 
would be good for it to happen--why it is important for the 
protection and sovereignty even of our country to be able to 
have this standing committee. Because if we don't have a 
standing committee for the largest agency in the Federal 
Government, I just don't see a bright future focusing here. And 
I don't see a future of a direction to that department from a 
committee that should be providing that direction.
    Mr. Schlesinger. If we have major terrorist acts continued, 
possibly frequent terrorist attacks on the United States, it 
will begin to change the nature of our system. It will change 
the nature of the body politic. We want to preserve the body 
politic as it now exists, for the most part.
    In World War II, General Marshall would come up here to 
Capitol Hill. And anyone who wanted to hear how the war was 
going, he would meet with people in closed sessions in just an 
informal discussion of what was going on in the world, so that 
members of Congress could feel that they were well informed 
with regard to the strategies and hopes of the government.
    It is also true that in that period that power was much 
more centralized, particularly here in the House. When Sam 
Rayburn was speaker of the House of Representatives, he had a 
great deal of authority and could push through things.
    In the wake of the Watergate crisis, or to some extent the 
disenchantments of the Vietnam War, there was a democratization 
of the Congress. There are advantages in that, but one of the 
costs of that is that we have seen a dispersion of power.
    We now face a different kind of crisis. It is not a 
question of responding to Pearl Harbor, and 4 years later 
accepting the surrender of Japan in Tokyo Bay.
    Terrorism is the tool of the weak and the terrorists are 
likely always to be with us. We must lower their capacity to 
inflict damage. If we fail to lower that capacity to inflict 
damage, this society will begin to change. It is a democracy, 
but if you begin to contemplate the psychological reaction of 
the public seeing a biological attack in Cincinnati, followed 
by a nuclear attack in Houston, what have you, you are going to 
see this society change.
    If we value what has been the wellspring of this 
constitutional democracy, which continues to be a dispersion of 
power, then we must as effectively as we can lower the capacity 
of those hostile to the United States to commit terrorist acts. 
And that is what the Department of Homeland Security is about. 
That is the legislation that you passed, and now you are called 
upon to make it effective.
    Mr. Meek. Mr. Chairman, just one more second.
    Mr. Secretary, right now our structure, we have 
chairpersons that are serving on this committee. We have 
ranking members that are serving on this committees of 
jurisdictions historically. When you think of a set up a 
standing committee, is that the formula to use to give the kind 
of input by other committees who serve on this committee, 
substantial members, ranking members, chairpersons, to serve on 
such a makeup of a standing Homeland Security Committee?
    Mr. Schlesinger. I have not thought through the way of 
implementing this on Capitol Hill. It may be that in the 
jurisdictional turf matter that the creation of a standing 
committee that would exist, as with other legislation with a 
sun-set law, might be the way to proceed. You have to entice, I 
think, sufficient support from powerful members of the House to 
allow the creation of this new standing committee.
    Part of that enticement would be their participating on 
this standing committee that might have a sun-set provision 5 
years out or 6 years out, during which we hope to essentially 
tear Al Qaida apart. We are doing a fair job of that now, but 
there will be more elements out there later on.
    And, yes, I think you have got to, if I were to speculate, 
if the leaders on the Democratic and the Republican side, 
speaker and the Democratic leader, were to estimate that they 
have the support of enough individuals in the House so that 
they can push through a standing committee, then the time has 
come to have a conversation with the chairmen of those standing 
committees and say, We are going to put this through. We have 
the votes.
    Now, would you like to be a participant? Or would you like 
to be an obstructionist? Because we have the votes, we have 
decided that this is in the national interest and the national 
interest is foremost, and jurisdictional questions must take a 
back seat to that. We need your help, but we will succeed 
without your help.
    Mr. Diaz-Balart. Dr. Schlesinger, I know you said you had 
to leave at 11:45. I was wondering if you had enough time for 
just a question from the chairman and the ranking member of the 
full committee. Mr. Sessions has been kind enough to waive his 
question.
    Mr. Chairman?
    Mr. Cox. Well, I note that it is after 11:45, and I don't 
want to keep you from your next appointment. I do want to thank 
you for your very pointed testimony. And I just wanted to draw 
attention to one part of your prepared testimony, which you 
also alluded to in your oral presentation. Contrasted the 
support that the creation of the Department of Energy had from 
the speaker of the House who created a select committee, who 
moved along the work of the standing committees in the House, 
did it on a strict time schedule and so on, with not only the 
disorganized process in the Senate that ultimately slowed 
things down, but also some intra-executive branch sniping, 
including the head of one department who derided the national 
security functions of the Department of Energy.
    And you pointed out that that ultimately contributed to, 
later, what you termed accurately, I am sure, unnecessary 
disorder.
    Now, fast forward to where we are today. You have stated 
that the purpose of consolidating oversight and legislative 
authority in the House of Representatives and the Senate is to 
ensure that we succeed and that the department succeeds in its 
mission and "any weaknesses in the department likely will 
prolong the activities of potential terrorists."
    So I take it that I am correctly inferring from your 
testimony that you are saying that there is a direct connection 
between what we are doing here and whether we win the war on 
terrorism.
    Mr. Schlesinger. It may be that there is a direct 
connection between that and whether we win the war on 
terrorism. But we will be more effective and quicker in winning 
such a war if we are united in our response to potential acts 
of terrorism.
    Mr. Cox. So I should have stated not whether, because our 
ultimate victory we are confident of, it is just a question of 
whether we do it sooner than later.
    Mr. Schlesinger. I hope that--as a response to that prior 
question, one must recognize that the capacity of the populace 
to accept repeated acts of terrorism could bring about a change 
in the composition of this society, a change in governance. And 
if we want to preserve the kind of democracy that we have, we 
must strive to be as effective as possible and to give as 
limited space to those who are hostile to us to successfully 
perform those acts of terrorism.
    Mr. Cox. Very well said.
    And I yield back, Mr. Chairman.
    Mr. Diaz-Balart. Thank you.
    Mr. Turner?
    Mr. Turner. Thank you, Mr. Chairman.
    And thanks, Dr. Schlesinger, appreciate your insights 
today.
    You know, when I evaluate where we are, and I know when we 
are trying to work through these jurisdictional turf battles, 
it seems to me that though there may be some who would prefer 
that we not have a committee, because it takes from the 
jurisdiction of others, it seems that the practical politics of 
this is just, as we created the Department of Homeland 
Security--and I concur with you, irrespective of our past views 
on what that department should look like--we all have a 
responsibility now to the American people to make it work.
    And nobody would ever dare suggest that we now undo it. I 
think in the same vein, it would be very surprising to think 
those in charge in the Congress, having created a Select 
Committee on Homeland Security, would declare that we are going 
to abolish it. And I would be interested in your thoughts on 
the politics of that.
    So if we make the assumption that we are going to have some 
kind of committee, it seems that the only outcome that could be 
worse than the abolishment of the committee would be to have 
created one without sufficient power to do the job.
    And there are two issues that I think I would like to ask 
you to give us your insight on. First of all, it seems to me 
that it is important for any committee of the Congress to have 
identical and overlapping oversight jurisdiction and 
legislative jurisdiction, which this committee currently does 
not have. Because, in exercising your oversight responsibility, 
if you discover something that needs to be changed and you do 
not have the legislative authority to change it, it seems to be 
a certainly a useless undertaking to delve into it in the first 
place.
    The second thing that comes to my mind that I would be 
interested in your comments on is, that if a department is 
accountable to everyone, it seems that it is likely to be 
accountable to no one. And as we have begun our task on this 
committee, I have seen examples of how our new department, in 
many ways, appears to be searching for who it really is 
supposed to be listening to.
    And so it seems to be fundamental to the appropriate and 
effective exercise of oversight to be sure that a department 
head, and his or her underlings, understand clearly who they 
are accountable to.
    Mr. Schlesinger. I cannot improve on that statement. I 
would modify it. It is not useless if oversight and legislative 
power or separated. But it is most useful if they are joined 
together. Having oversight responsibility, you can point to 
certain things. You can arouse a concern in the general public 
and press--that may force legislative changes. But obviously, 
if you have the power within a committee dedicated to the 
Department of Homeland Security, that is better than separation 
of those two components.
    second, you talked about what essentially was 
fragmentation. If the if the 88 committees of some jurisdiction 
in the Congress are dealing with the Department of Homeland 
Security, they cannot successfully achieve that common mission 
of protecting the homeland.
    Thus, it will wind up that some committees, some committee 
members, some staffs will say to that Department of Homeland 
Security, Unless you do X, unless you give us this response, we 
are going to take it out on the department.
    And you will have a fragmentation that will be pulling the 
department apart. It will be responding to the fragmentation 
that would continue to exist on Capitol Hill.
    And as a consequence, I think that if you are going to 
achieve the results that everybody wants, they may disagree in 
retrospect about what should have been put in the department, 
but the result that everybody wants, that this department be 
successful because it is the umbrella that protects the 
society, then we must have a greater degree of unity on the 
Hill, as well as in the executive branch.
    The executive branch will continue to fragment if the Hill 
remains fragmented.
    You asked about politics, Mr. Turner? If something happens 
and that is seen to be a response to the continued 
fragmentation of authority on Capitol Hill, the politics will 
not be good for those who have blocked an appropriate response.
    And I think that you can spell that out much more 
eloquently than I can.
    Mr. Turner. Thank you.
    Mr. Diaz-Balart. Thank you, Dr. Schlesinger. I think your 
testimony of frankness and clarity could not have been more 
interesting or useful, and we are very grateful to you for 
having been here this morning.
    Mr. Schlesinger. Thank you, Mr. Chairman, thank you all for 
your kind attention.
    Mr. Diaz-Balart. Thank you. Our second panel today consists 
of three noted scholars and congressional practitioners who 
will share their insight and observations about House committee 
jurisdiction and homeland security, and more generally the 
relationship between committee and executive branch 
organization.
    We have with us this morning Dr. James Therber, who directs 
the Center for Congressional and Presidential Studies at the 
American University. Dr. Therber is not only a well-known 
congressional scholar, he was a former aide on Capitol Hill, he 
is the author of numerous books on Congress and American 
politics.
    Don Wolfensberger also joins us today. Don is a 30-year 
veteran of the House of Representatives who rose to become the 
staff director of the Committee on Rules, and served the 
committee very ably, under the chairmanship of our dear late 
colleague Gerald Solomon of New York. Today, Mr. Wolfensberger 
is the director of the Congress Project at the Woodrow Wilson 
Center.
    Professor David King is at the Kennedy School of Government 
at Harvard, is the author of an award-winning book entitled 
Turf Wars: How Congressional Committees Claim Jurisdiction. And 
to be sure, that is a topic that, obviously, interests us very 
much.

    So I welcome our distinguished panelists, and would ask 
them to proceed in the order they wish at this time.

STATEMENT OF DR. JAMES THURBER, PROFESSOR AND DIRECTOR, CENTER 
 FOR CONGRESSIONAL AND PRESIDENTIAL STUDIES, SCHOOL OF PUBLIC 
                  AFFAIRS, AMERICAN UNIVERSITY

    Dr. Thurber. Shall I start, Mr. Chair?
    Mr. Diaz-Balart. Yes, sir.
    Dr. Thurber. Thank you.
    Thank you, Mr. Chairman and members of the subcommittee for 
this honor to testify before you on this important issue.
    I especially am pleased to work here with Representative 
Slaughter. I have worked with her before.
    And a co-author, Mr. Dreier. In one of my books, he has 
written a chapter on Internet in Congress. He did a fine job in 
that book.
    I am here to not talk about the need of this committee. 
That is in my testimony, and I ask that my written testimony be 
put in the record. I think all of you have stated the need very 
clearly.
    I am here to talk about the details. I think there should 
be a permanent committee on homeland security. And I would like 
to talk specifically about jurisdictional changes that I 
recommend.
    second, some secondary oversight responsibilities of this 
committee and primary responsibility in other committees.
    And third, methods for achieving the creation of a 
permanent committee on homeland security.
    I do this, by the way, in the context of almost 30 years 
experience. But in particular, I worked for the Senate--it was 
called committee on committees--that reorganize the Energy and 
Environment Committees--in 1976. And I was the staff person to 
do that. So I will have some comments with respect to Mr. 
Schlesinger's comments on the difficulty of reorganizing 
Energy.
    I think the Senate was fairly successful. The House was 
not. And I will give you some reasons why that was the case 
later.
    I also would like to say that I have used this as an 
assignment for the last 5 years with my graduate seminar in the 
sense that I have asked them to map policy systems, including 
counterterrorism systems. And so I have heard all kinds of 
cases for reorganization of the House and the Senate from my 
students.
    Two of those students are in the audience right now, and 
they did a fine job of helping me with this.
    But let us begin.
    As you know, the reorganization of the House committee 
system has already begun. And it started with the creation of 
your select committee: but, more importantly, there has been 
restructuring of the Committee on Appropriations, the Armed 
Services Committee, the International Relations Committee, the 
Judiciary Committee and the Permanent Select Committee on 
Intelligence with respect to homeland security.
    I know from my outside observation and discussing with 
former students who are staff members up here, that the 
appropriators would like you not to reorganize in the sense 
that it would be just fine to have the focus primarily in 
appropriations over this particular issue. That is somewhat of 
a joke. I don't think they would tell you that. But if you 
didn't organize, the power would certainly go for a central 
focus to the appropriators.
    I think the next step for the Congress, though, is to 
consolidate jurisdictions and to clearly designate it in Rule 
10, and I will get into that later, rather than through 
precedent. There should be some codification in Rule 10 for the 
jurisdiction, immediately, to get this select committee the 
power of oversight, as well as authorization.
    I know that many influential members and their staffs 
chiefs of staff-are reported to be against creating the 
permanent Committee on Homeland Security. It was in the press 
last week. Because it would create this very large 
jurisdictional battle, and these jurisdictional battles have 
created unnecessary conflict, they think, in the past, from 
1946 to the present. Now, there are examples of failure of 
doing this.
    However, this is no time for the committee to shy away from 
the job of creating a permanent panel. It will reduce the risk 
of terrorism. I think the American people want this.
    As just an aside, I think the first responders want it. My 
son-in-law is a detective in Seattle. And I was there last 
week. And he could not believe that the Congress had not 
reorganized itself yet. And I told him that there were 88 
panels involved here.
    And he, of course, is not a congressional scholar, and he 
is only one person, but I think the first responders would like 
to see Congress organized in a way so that there is a central 
focus over this issue.
    I recommend that the permanent committee have the 
jurisdiction directly related to the agencies of DHS and 
generally to the mission of reducing the threat of homeland 
security. The jurisdictions of committees related to the major 
agencies in DHS should be transferred.
    And it is in my written testimony, but let me remind you 
that you should have in this permanent committee jurisdiction 
from the Committee on Agriculture, the Animal and Plant Health 
Inspection Service, Plum Island Animal Disease Center.
    I would also move jurisdiction from the Committee on Armed 
Services, the National Bioweapons Defense Analysis Center, the 
National Communication System Jurisdiction and the Committee on 
Energy and Commerce, the Strategic National Stockpile and the 
National Disaster Medical System.
    From the Committee on Judiciary, the Secret Service, 
Immigration and Naturalization Service and also the Federal Law 
Enforcement Training Center, the Office of Domestic 
Preparedness, domestic emergency response teams, the National 
Infrastructure Center. And from the Committee on Science, the 
CBRN countermeasures programs, the Environmental Measures 
Laboratory, the Critical Infrastructure Assurance Office, 
Federal Computer Incident Response Center, the energy security 
and assurance program.
    And from the Committee on Transportation, the 
infrastructure, Secret Service, the U.S. Coast Guard, the 
Federal Protectorate Service, the Transportation Security 
Administration and FEMA.
    And from the Committee on Ways and Means, the Customs 
Service.
    But this will not happen, in my opinion, unless you 
approach it the way Secretary Schlesinger had indicated in the 
answer to Mr. Turner, and I have it in my testimony. I think 
you need experienced members from the seven primary committees 
losing jurisdiction on this committee, where they have lost 
jurisdiction on this committee. In the Senate, that is what we 
did.
    As I like to tell my students, we aggrandized the barons. 
What does that mean? We didn't take away from powerful people; 
we gave powerful people more power. And in this case, I would 
grandfather people for the new committee so you could keep your 
previous committee assignments and be on this new committee.
    What does that do? It brings in knowledge, expertise, 
institutional history from those committees. And it 
automatically helps to coordinate with those committees.
    The Budget Committee had, when it was created in 1974, a 
similar thing where they brought in people from Ways and Means 
and Appropriations and someone from leadership on the Budget 
Committee. And it was a way--some people said it was a way to 
weaken the committee. I felt it was a way to coordinate with 
the key committees that were related to the budget process. And 
this would be a similar thing.
    Transition rules should be made to allow, then, members 
from these committees, in my opinion, to be on this new 
committee.
    The jurisdiction of the new committee should also, though, 
take into account that most agencies dealing with homeland 
security are outside the DHS. These agencies include the 
Northern Command. And I am not recommending that they be in 
your committee, but I just want to point out that there should 
be some relationship with these things. The Northern Command, 
the National Guard, the Federal Bureau of Investigation, the 
Central Intelligence Agency, the NSA, the National Imagery and 
Mapping Agency, the Centers for Disease Control.
    We talked about NRC before. I have done a lot of work with 
NRC. And there is a division there that deals with security. 
There should be some relationship to that. And the elements of 
the Drug Enforcement Agency that deal with borders, and many 
parts of the Department of Energy.
    There should be some kind of oversight and coordination 
relationship with those activities, in my opinion.
    The new committee will need to strengthen coordination with 
other committees, such as Armed Services, Judiciary and the 
Permanent Select Committee on Intelligence, in order to 
develop, in my opinion, a comprehensive policy making approach 
to homeland security.
    There is also the issue that was brought up by Mr. Linder, 
earlier as well, why in the world should we have certain 
aspects of the Coast Guard or the Agriculture Department in the 
jurisdiction, or even in DHS in the jurisdiction of this 
committee?
    I would say that for the following jurisdictions, the 
committee of primary jurisdiction before DHS was created, I 
think, should have that jurisdiction, and you should have, you 
meaning the Permanent Select Committee, permanent committees 
should have an oversight relationship on these things.
    For example, the safety, transportation, and maritime 
responsibilities of the Coast Guard, I think, they overlap with 
the Committee on Transportation Infrastructure; I think that 
they should stay there.
    In terms of primary jurisdiction, the food safety 
responsibilities of the Animal and Plant Inspection Service, 
you could share jurisdiction there.
    The promotion of trade, which was brought up before, could 
be shared with the Ways and Means Committee. This shared 
jurisdiction with primary and secondary responsibilities for 
the functions of the entities in DHS needs to be carefully 
defined and done in a prudent way.
    Now, how do you do it? Well, I have given you one 
indication of that, and that is that you have, you bring 
people, as you have with the Select Committee, from other 
committees and beyond the committee.
    Another way to do it, and I don't recommend it, but it is 
an alternative, is to create an ad hoc committee, continuing, 
though with oversight, as well as authorizing jurisdiction.
    I think the way you do it is you transfer powerful people 
onto the committees from the committees of jurisdiction, and 
you change the rules in Rule 10.
    I think that the American people, do not care where this is 
going to be handled, they just want it to be handled with 
efficiency, efficiently and in one place.
    I think that you, with all due respect, must get beyond the 
laugh factor when Americans think that there are 88 committees 
and subcommittees up here dealing with homeland security.
    That worries them. They are worried about homeland security 
and terrorism, and I think it should move prudently but rapidly 
to create a permanent select, a permanent Committee on Homeland 
Security.

               PREPARED STATEMENT OF DR. JAMES A. THURBER

    The views expressed in this statement are those of the author and 
should not be ascribed to the trustees, officers, or staff members of 
American University.
    Thank you for inviting me to testify before your subcommittee on 
the issue of whether the House committee organization, procedures and 
structure are organized adequately to address policy and oversight 
issues associated with homeland security. In the aftermath of September 
11th , the continuing dangerous security threats to the nation, and the 
historic reorganization of twenty-two agencies employing over 175,000 
workers into the new Department of Homeland Security to deal with those 
threats, your evaluation of the effectiveness of the House committee 
system to meet the challenge of homeland security is a crucial 
priority. Periodic consolidation and modernization of the standing 
committee system is necessary and this is certainly one of those times. 
That task is critical and directly related to the security of America 
and is called for in the legislation creating the new Department of 
Homeland Security (DHS): ``It is the sense of Congress that each House 
of Congress should review its committee structure in light of the 
reorganization of responsibilities within the executive branch by the 
establishment of the Department,'' (Title XV, Subtitle A, Section 
1503).
    I hope my thirty years of academic and practical knowledge of the 
operations of the Congress and the jurisdictional battles in the 
committee system can provide useful background information and lessons 
from past congressional reorganization efforts. I am pleased to be 
asked to comment on how the House can be organized to more effectively 
handle issues of homeland security and the work with the new Department 
of Homeland Security.

    Create a Permanent Committee on Homeland Security
    As you know, the reorganization of the House committee system has 
already started with the creation of your Select Committee and the 
restructuring of the Committees on Appropriations, Armed Services, 
International Relations, Judiciary and the Permanent Select Committee 
on Intelligence to deal with jurisdictional matters related to homeland 
security. The next step in the process of improving the way Congress 
addresses issues of homeland security is to create a permanent standing 
committee in the House with its areas of jurisdiction over homeland 
security clearly designated in Rule X. I know that many influential 
House members and their chiefs of staff are reported to be against 
creating a permanent Committee on Homeland Security because it would 
create major jurisdictional battles. This is not the time for your 
committee to shy away from the job of creating a permanent committee 
that will help reduce the risk of terrorism.
    Knowing full well the difficulty of committee jurisdictional change 
and taking into account the homeland security related reforms that have 
already occurred in the House, the focus of my testimony is on the need 
to create a permanent Committee on Homeland Security and the methods 
the House might consider in creating the new committee. I strongly 
recommend a permanent committee with clear primary jurisdiction over 
the Department of Homeland Security and the broader mission of keeping 
America safe from terrorism. This committee must take a vigorous 
lawmaking and oversight role in homeland security policy in order to be 
taken seriously by the executive branch, other House committees, and 
the American public. Americans need the assurance that Congress is 
protecting the nation from future terrorist attacks. Creating a single 
permanent committee is consistent with other congressional responses to 
horrible events in history.
    I recommend the creation of a permanent Committee on Homeland 
Security with jurisdiction directly related to the agencies in DHS and 
generally to the mission of reducing the threat to homeland security. 
Jurisdiction of committees related to the major agencies in DHS should 
be transferred to the permanent committee, which include: Committee on 
Agriculture (Animal and Plant Health Inspection Service, Plum Island 
Animal Disease Center), Committee on Armed Services (National Bio-
Weapons Defense Analysis Center, National Communications System), 
Committee on Energy and Commerce (Strategic National Stockpile and the 
National Disaster Medical System), Committee on the Judiciary (Secret 
Service, Immigration and Naturalization Service), Federal Law 
Enforcement Training Center, Office of Domestic Preparedness, Domestic 
Emergency Response Teams, National Infrastructure Center), Committee on 
Science (CBRN Countermeasures Programs, Environmental Measurements 
laboratory, Critical Infrastructure Assurance Office, Federal Computer 
Incident Response Center, Energy Security and Assurance Program), 
Committee on Transportation and Infrastructure (Secret Service, U.S. 
Coast Guard, Federal Protective Service, Transportation Security 
Administration, Federal Emergency Management Agency), and Committee on 
Ways and Means (Customs Service).
    Experienced members (not necessarily the chairs) from the seven 
primary committees losing jurisdiction and other committees with 
related jurisdiction should form the basis of the membership of the 
Committee on Homeland Security. If the membership of the new committee 
were to come from these committees, it would possess the informed power 
to act quickly and decisively when needed. ``Grandfather'' or 
transition rules should be made to allow the members of the new 
committee to hold the new assignment as well as their existing ones. 
This allows for better coordination among committees and an efficient 
transfer of institutional memory and expertise of homeland security 
issues from other committees.
    The jurisdiction of the new committee should also take into account 
that most agencies dealing with homeland security are outside the DHS. 
These agencies include the new Northern Command, the National Guard, 
the Federal Bureau of Investigation, the Central Intelligence Agency, 
the National Security Agency, the National Imagery and Mapping Agency, 
the Centers for Disease Control, and key elements of the Drug 
Enforcement Agency and the Department of Energy. Therefore, therefore 
the new committee will need to strengthen its coordination with other 
committees, such as Armed Services, Judiciary, and the Permanent Select 
Committee on Intelligence, in order to develop a comprehensive policy-
making approach to homeland security and counter terrorism.
    The committee should also carefully designate some overlapping 
jurisdiction with programs in DHS with other committees; for example, 
the safety and transportation maritime responsibilities of the Coast 
Guard could overlap with the Committee on Transportation and 
Infrastructure; the food safety responsibilities of Animal and Plant 
Inspection Service could share jurisdiction with the Committee on 
Agriculture; and the Customs Service's function of promotion of trade 
with the Committee on Ways and Means. Shared jurisdiction with primary 
and secondary responsibilities for the functions of the entities in DHS 
is necessary and prudent to make sure that the old and new missions of 
these programs work smoothly.

    Reasons to Create a New Committee on Homeland Security

    The ability of the House to write legislation, develop 
comprehensive policy in advance and in response to crisis, oversee the 
administration of laws, as well as represent the American people, 
organized groups, and state and local governments (including first 
responders to attacks), depends largely on the organization and 
management of the committee system. The House currently relies on a 
total of 13 standing committees (including Appropriations and the 
Permanent Select Committee on Intelligence) plus your committee and at 
least 38 subcommittees (see appendix for chart of committees) with 
jurisdiction over homeland security. Homeland Security Secretary Tom 
Ridge said of the turf question on the Hill: ``I believe they'll work 
their way through that maze of committees and subcommittees, and end up 
providing the kind of leadership we need at the congressional level.'' 
This complex, competing and cumbersome jurisdictional juggernaut over 
homeland security generates dramatically different workloads, excessive 
competition among committees, scheduling conflicts, duplication of 
staff, and dissipation of technical expertise. The House committee 
system related to DHS and the mission of homeland security has too many 
standing authorizing committees with major jurisdiction over programs 
that have been transferred to DHS.
    On opening day of the 108th Congress, Speaker-elect Hastert 
implicitly offered the most important reason for a new Committee on 
Homeland Security: ``Members of this select committee (Select Committee 
on Homeland Security) will oversee the creation of the Department of 
Homeland Security to make certain that the executive branch is carrying 
out the will of the Congress. This select committee will be our eyes 
and ears as this critical department is organized. ...This House needs 
to adapt to the largest reorganization of our executive branch in 50 
years, and this select committee will help us make this transition.'' 
The House created a select committee with no primary legislative or 
oversight jurisdiction relying on the will of the House leadership and 
the skill of its chair, Chris Cox, as well as the members of the 
committee to highlight the problems with DHS and homeland security, to 
get the department to implement its reforms and focus on new threats, 
and to educate the American public. The select committee does not have 
the formal power to bring a focus to all of the jurisdictional parts of 
the DHS, let alone the other aspects of homeland security in other 
departments. A permanent Committee on Homeland Security is the only way 
to effectively see whether DHS, and other homeland security programs, 
are doing their jobs of addressing the problems of terrorist threats.
    Other important reasons for the creation of a permanent Committee 
on Homeland Security are that it would help Congress carry out the will 
of the American people to improve the protection of our homeland and it 
would protect the constitutional powers of Congress and our system of 
checks and balances with the executive branch. If the Congress wants to 
influence and direct homeland security policy and act as a co-equal 
partner with the executive branch, it needs to create a permanent 
committee on homeland security. This committee would also maintain 
coordination within the House and create a central point of contact in 
the House for the executive branch. The committee could increase 
efficiency of dealing with homeland security crises and issues that 
will arise. It could help equalize the workloads of committees. It will 
ensure effective oversight of a crucial national priority and be the 
primary eyes and ears of the House over DHS as it struggles with a new 
culture and organization. The new committee could direct homeland 
security in a comprehensive and coordinated way, reducing uncertainty 
in committee jurisdictions and decision-making related to the mission 
of homeland security.

    Methods of Establishing a Committee on Homeland Security
    One way to create the legislative and oversight jurisdiction over 
homeland security is through different patterns of bill referral. The 
House rules stipulate that the Speaker must refer each bill, 
resolution, or other measure to a committee in accordance with the 
subject matter of the act and the jurisdictions of chamber panels 
(House Rule XII, Section 2). The Speaker's referral authority, both as 
stated in the standing rules and specifically in section 4 of H.Res.5, 
the Speaker has discretion to refer matters either initially or 
sequentially to the select committee and then to other committees. The 
Speaker has all the authority he needs to refer bills to the Select 
Committee on Homeland Security, thus establishing it as the primary 
committee of jurisdiction. However, the select committee is not 
permanent and does not currently have the authority to consolidate 
jurisdictions and legislate through its own actions.
    Task forces, and ad hoc panels have been good temporary devices for 
dealing with major issues with multiple jurisdictions, illustrated by 
Speaker Tip O'Neill's creation of an ad hoc committee to help pass the 
Carter energy plan through the house on an expedited basis. The 
creation of a temporary committee for the expedited passage of 
legislation to create the Department of Homeland Security is another 
example. However, these mechanisms are not a good permanent solution to 
handle high-priority issues such as homeland security. If another 
terrorist attack occurs, Americans will want a single congressional 
committee tackling the problem. Congress did not have a series of 
temporary panels after the attack on Pearl Harbor and the American 
people do not expect it to react to this crisis in an ad hoc fashion 
either.
    The best way to create a permanent Committee on Homeland Security 
is to formally shift jurisdiction from existing standing committees 
along the lines elaborated above through changes in House Rule X.

    Concluding Comments on Committee Reform

    In describing how difficult it is to reorganize jurisdictions in 
the House committee system in the 104th Congress, Representative Dreier 
said, ``You would have thought I was threatening their wives...people 
would prefer to give me their first-born rather than give up a portion 
of their committee jurisdiction.'' Members are profoundly conscious of 
the electoral effects when the House rules and procedures are changed. 
Members invest heavily in their assigned committees. Congressional 
committee organization has a perceived impact on the likelihood of 
reelection. However, voters do not care about the jurisdictional powers 
of congressional committees; they care if their representative can 
solve the problems of homeland security or not. Members are astute 
political actors who understand the ramifications of changing the turf 
or jurisdiction of their committees and their ability to help 
constituents and get reelected, but the House must move beyond these 
worries. This committee is bound to meet with considerable resistance 
to any change in committee jurisdiction over homeland security--the 
greater the reform, the bigger the battle. Recommendations of major 
jurisdictional committee reforms will result in broadening the 
coalition of opponents, as we have seen with all House reorganization 
efforts since 1946. However, this committee should not be intimidated 
by the upcoming battle. It must move the House beyond policy deadlock, 
partisan bickering and turf protection on this important policy. Do not 
make homeland security a partisan issue in the 2004 elections. This is 
time for a bipartisan response to a real fear felt by every American. 
Create a permanent Committee on Homeland Security to deal with the 
terrorist threat to America.
    Thank you, and good luck!

    Mr. Diaz-Balart. Thank you, thank you very much, Dr. 
Thurber. Mr. Wolfensberger?

   STATEMENT OF MR. DONALD WOLFENSBERGER, DIRECTOR, CONGRESS 
   PROJECT, WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS

    Mr. Wolfensberger. Thank you, Mr. Chairman, and members of 
the subcommittee. It is good to be back here in the House, 
which I still consider home, and to see so many familiar faces 
again.
    I appreciate this opportunity to testify today on 
organizing the House for homeland security in the wake of the 
September 11 terrorist attacks. I will summarize my statement, 
and ask the full statement be put in the record.
    Mr. Diaz-Balart. Without objection, it will be.
    Mr. Wolfensberger. I especially want to commend, the 
bipartisan leadership, both in the last Congress and this 
Congress, for its flexibility, innovation, and commitment to 
addressing this issue early on.
    Speaker Hastert and Mr. Gephardt in the last Congress 
actually put together, or were the creators of a task force on 
the Intelligence Committee on counter-terrorism and homeland 
security several months before September 11th in 2001. That was 
the Chambliss-Harman Task Force, and that was done in response 
to the Hart-Rudman Commission recommendation.
    But then in the last Congress you had the small leadership 
Select Committee that was charged with coordinating the 
crafting of the legislation that put together the Homeland 
Security Department; and, in this Congress a quite different 
Select Committee, with a different mission, your 50-member 
Select Committee on Homeland Security, charged with really 
overseeing the early organization and operation of the new 
Department.
    So there have been different ways of addressing this as you 
have moved along over the last 3 years. The central issue that 
confronts you now is where do you go structurally in the House, 
or, should there be a more permanent type of entity that should 
be put in place.
    And there are two key questions that you have to ask 
yourselves. First, is the issue of homeland security important 
enough to warrant a separate committee focused exclusively on 
the policies, programs and problems of homeland security?
    And secondly, if so, what is the best way to restructure 
the House committee system to ensure that this is done in the 
most effective manner?
    Now, obviously there is a third question, which I do 
mention in my written testimony, and in your minds it may be an 
overriding question, and that might be one that to you obscures 
or negates the importance of the other two questions, and that 
is whether it is politically feasible to do this, given the 
turf sensitivities of various committee chairmen and members.
    I would caution, however, against allowing this third 
question to get in the way of proceeding to go full bore on the 
first two questions, so let me just briefly address each of the 
three questions in the order in which I have posed them.
    First, is a separate committee needed? In my opinion, the 
answer is an unequivocal yes. I think the threat of terrorism 
is going to be with us for a long time to come, and it is not 
just a passing phenomenon.
    Second, I think the threat is so serious as to warrant a 
concentrated effort by both the executive and Congress to 
combat it. And that, in turn, requires having intensive and 
extensive coordination between and within the two branches, as 
well as with state and local units of government.
    This level of coordination is not something that you can 
relegate to a subcommittee of an existing committee, let alone 
to dozens of existing committees and subcommittees having bits 
and pieces of jurisdiction.
    Finally, this is something that will require a change in 
the bureaucratic culture and norms in the new executive branch 
components of the department, as well as a change in the 
political culture and norms here in the Congress.
    Both branches are still wedded to traditional, pre-9/11 
arrangements and relationships internally, and with their 
counterparts in the other branch, what some have referred to in 
the past as the iron triangle of subcommittees, agencies and 
their private and public sector clienteles.
    You need a separate committee that is willing to set a new 
course and way of doing things: exercise tough oversight, 
employ innovative thinking and exert constant pressure on the 
new department to set the right priorities and pursue them 
rigorously.
    Moving to the second question, as to how such a committee 
should be constituted, I think the answer is self-evident if 
you agree with the basic premises of my answer to the first 
question. This must be a permanent, standing committee, not a 
select committee. It should be a major committee for assignment 
purposes, if not an exclusive committee.
    It must have primary legislative as well as oversight 
authority over the Homeland Security Department, its agencies, 
programs and activities. And it should also have secondary 
legislative and oversight jurisdiction over homeland security 
responsibilities lodged elsewhere in the government.
    It should be tied closely to the leadership in coordinating 
its oversight activities with that of other committees, meaning 
that the oversight agendas adopted by the committees at the 
beginning of a Congress should be superintended by the 
bipartisan leadership of the House, as the rule now intends, 
but also on an ongoing basis as new areas for oversight arise 
during the course of the Congress.
    Finally, to my third question. Is the creation of a new 
standing committee in homeland security politically feasible?
    My answer is that winning approval of such a committee will 
be a very difficult, contentious, and perhaps even bloody, 
challenge, but that it is politically feasible because it is 
both good for the House and for the country.
    Most worthwhile endeavors are not easy, but that does not 
mean that you turn your backs on them at the possibility of 
defeat or rejection.
    Much has been made of past failed attempts in the House 
over jurisdictional reform, particularly the efforts by select 
committees in 1974 and 1980. The central reason for both 
failures then, we are told, was Turf with a capital T, and that 
stands for trouble.
    Turf is still a major obstacle today in any proposed 
jurisdictional reorganization. But I think the times have 
changed since the 1970's, and the Energy and Homeland Security 
analogy is an imperfect analogy at best. First and foremost, 
terrorism is a more real and tangible threat to the American 
people than the threat of energy insecurity or dependence on 
foreign oil.
    During the twin energy shocks of the 1970's, there was not 
strong public sentiment that they were presented with a life-
and-death situation, let alone that a new energy department or 
energy committee would ameliorate the problem.
    The terrorism attacks, on the other hand, literally hit 
home and changed our country and its people dramatically 
overnight. This is a very real and ongoing threat that could 
extinguish our lives and livelihoods in an instant.
    Second, the House has changed institutionally since the 
1970's. In that decade, the House went through a dramatic 
transformation of power relationships among the majority party 
caucus, committee chairmen and party leaders. Following that 
democratic upheaval, there was little interest in any of these 
camps to fight another round for power, this time over 
committee jurisdictions.
    So, junior and senior members alike banned together to 
defeat the bipartisan select committee reforms, not once, but 
twice. And the two speakers at the time, who were much weaker 
then than they are today, stayed away from above the fray, 
rather than lead.
    Third, an array of special interests was organized and 
mobilized against the Bolling Plan in 1974. And the longer that 
the plan was delayed in the caucus, the more that these 
interests had time to pick it to pieces and grow the opposition 
within the caucus.
    Fourth, there was little media attention, if any, to the 
plan back in 1974. It was not sexy, like campaign reform. And 
it did not have legs beyond the beltway, notwithstanding some 
urgency over the energy issue.
    Fifth, the plan had more losers than winners. It was not 
officially tweaked to ensure that members at least gained 
something for their losses. To most, it was a lose-lose 
proposition.
    Sixth, the bipartisan membership of the select committee 
did not work closely together in building bipartisan support 
beyond its ranks. Instead, the ranking minority member ended up 
offering his own substitute, which was different from that 
reported by the select committee. They divided and were 
conquered.
    Mr. Chairman, you and your colleagues on the select 
committee have a chance to make this succeed, and thereby 
demonstrate that history does not necessarily repeat itself. 
You have the benefit of knowing why past efforts failed. You 
have the time in the next few months to lay the ground work for 
the concept and the necessity of a permanent committee by 
educating your House colleagues and building bipartisan support 
among party leaders and members alike.
    I wish you well in this endeavor, should you decide to 
pursue it.
    And I will be happy any questions once our third witness is 
finished.

           PREPARED STATEMENT OF MR. DONALD R. WOLFENSBERGER

    Mr. Chairman and members of the Subcommittee:
    I appreciate this opportunity to testify today on possible future 
House organizational changes to deal with the structural and policy 
issues surrounding homeland security. I especially want to commend 
Speaker Hastert, former Democratic Leader Gephardt, and current 
Democratic Leader Pelosi on working together to devise creative ways to 
handle both the creation of the new Homeland Security Department hi the 
last Congress and to oversee its early organizational and operational 
efforts in this Congress, The creation of two different select 
committees, of different compositions and missions, is a tribute to the 
flexibility and commitment of the bipartisan leadership to make sure 
this job is done right at every step of the way, and that Congress 
plays an ongoing and integral role in the further development of 
measures to protect this country against future terrorist attacks. This 
is too important a task to leave solely to the Executive Branch.
    The central question confronting this subcommittee, and ultimately 
the full committee and House, is what new structural mechanism if any, 
is needed in the House to perform the policy and oversight functions 
involved with this vast new undertaking. I agree with the 
Parliamentarian, Charley Johnson, that the Congress need not, as a 
matter of course, create a committee system that mirrors, in every 
respect, the Executive Branch cabinet departments. At the same time, we 
should recognize that this is precisely how the Appropriations 
Committee's subcommittee structure is organized (including the new 
House and Senate Appropriations Subcommittees on Homeland Security), 
and, to a lesser extent, how many of our authorizing committees are 
focused. The Armed Services Committee is responsible for the annual 
defense authorization bill, the International Relations Committees for 
the State Department authorization, Intelligence for the annual 
intelligence community authorization, Judiciary for the Justice 
Department authorization, Veterans' for the VA and its programs, 
Education for the Education Department, Small Business for SBA, and so 
on.
    It seems to me that there arc two key questions you have to ask 
yourselves. First, is the issue of homeland security important enough 
to warrant a separate committee focused exclusively on the policies, 
programs, problems of homeland security? And, secondly, if so, what is 
the best way to restructure the House committee system to ensure this 
is done in the most effective manner?
    I fully appreciate that there is a third question hanging over 
this, and, in your minds, it may seem an overriding question that 
obscures or negates the importance of the other two questions, and that 
is: Is it politically feasible to create such a committee given the 
turf sensitivities of existing committee chairmen arid members? But I 
would caution against letting this third question get in the way of 
proceeding full bore with answering the first two.
    Let me give my perspective on all three questions in the order in 
which I have posed them. First, is a separate committee needed? In my 
opinion, the answer is an unequivocal ``yes.'' I think the threat of 
terrorism is going to be with us for a long time to come and is not 
just some passing phenomenon. Second, I think the threat is so serious 
as to warrant a concentrated effort by both the Executive and Congress 
to combat it. And that in turn requires having intensive coordination 
of Executive branch efforts internally and with state and local levels 
of government, and close oversight and policy innovation by the 
Congress This is not something you can relegate to a subcommittee of an 
existing committee, let alone to the existing structure in which dozens 
of House and Senate committees and subcommittees have apiece of the 
jurisdiction.
    Finally, this is something that will require a change in the 
bureaucratic culture and norms in the new Executive Branch components 
of the department as well as a change in the political culture and 
norms here in Congress. Both branches are still wedded to traditional, 
pre-9/1 1 arrangements and relationships internally and with their 
counterparts in the other branch--what some have re to in the past as 
the ``iron triangle'' of subcommittees, agencies and their private 
sector clienteles. You need a separate committee that is willing to set 
a new course and way of doing things--exercise tough oversight, employ 
innovative thinking, and exert constant pressure on the new department 
to set the right priorities and pursue them vigorously. There is no 
time nor room for clinging to the old, cozy relationships and standard 
operating procedures that everyone is comfortable with. This is not a 
cozy, comfortable age in which live. As Lincoln put it in his second 
annual message to CongressThe dogmas of the quiet past arc inadequate 
to the stormy present. The occasion is piled high with difficulty and 
we must rise with the occasion. As our case is new, so we must think 
anew arid act anew. We must disenthrall ourselves, and then we shall 
save our Country.
    Moving to the second question as to how such a committee should be 
constituted, I think the answer is self-evident if you agree with the 
underlying premises of my answer to the first question. This must be a 
permanent, standing committee, not a select committee, It should be a 
major committee for assignment purposes, if not an exclusive committee. 
It must have primary legislative as well as oversight authority over 
the Homeland Security Department, its agencies, programs and 
activities. It should also have secondary legislative and oversight 
jurisdiction over homeland security responsibilities lodged elsewhere 
in the government. It should be tied closely to the leadership in 
coordinating its oversight activities with that of other committees--
meaning the oversight agendas adopted by committees at the beginning of 
a Congress should be superintended by the leadership, as the House rule 
intends, but also on an ongoing basis as new areas for oversight arise 
during the course of a Congress.
    Much is made of the need to avoid taking all the time of the 
Secretary of Homeland Security or his key principals in appearing 
before a host of congressional committees and subcommittees, and that 
is one important argument for a central or primary committee coupled 
with leadership coordination of the others. But the convenience of 
Executive Branch officials is not, nor should it be, the principal 
driving force behind creating such a committee. The principal rationale 
for such a committee is to better ensure the protection of the American 
people against ten threats, and if the committee is dedicated solely to 
that it will both assist and prod the Department to do the best job it 
can. But it cannot be justified simply on grounds of being a one-stop 
hearing shop or convenience store for the Executive Branch officials. I 
suspect if the committee is doing its job well, the Department will 
often not find it a very ``convenient'' venue to testify, but that it 
will find the committee a very vital and helpful ally in our war 
against terrorism.
    Finally, to the third question, which is whether creating a new 
standing House Committee on Homeland Security with primary legislative 
jurisdiction over the Department and its activities is politically 
feasible. My answer is that winning approval for such a committee will 
be a very difficult, contentious, and perhaps even bloody challenge, 
but that it is politically feasible because it is good for both the 
House arid for the country. Most worthwhile endeavors are not easy, but 
that does not mean that you turn your backs on them at the prospect of 
defeat or rejection.
    Much has been made by me and others about the lessons of past 
attempts to make jurisdictional changes in our committee system, and 
why and bow most of these have gone down in flames--particularly the 
two efforts to create a House energy committees in 1974 and 1979. As 
one of my colleagues on this panel has cautioned me, analogies are 
imperfect, at best, and I agree. The times change, the players change, 
the institution changes, the relative powers of party leaders and 
committee chairs change. But one thing that does not seem to change, in 
my opinion--the one thing that seems to have an almost universal aura 
about it--and that is ``turf;'' with a capital ``T,'' and, as the Music 
Man might put it, ``that stands for trouble.'' The title of David 
King's book, ``Turf Wars,'' sums up nicely what happens when 
committees? jurisdictions are threatened by other committees.
    So, why should creating a standing committee on homeland security 
turn out any differently than past efforts to create a standing 
committee on energy? I think there are several reasons why this one 
seems more politically doable than the failed energy committee efforts. 
First and foremost, terrorism is a more real and tangible threat to the 
American people than the threat of energy insecurity or dependence on 
foreign oil. Notwithstanding the Arab oil embargo, the gas lines, the 
rising prices, and the distant prospect that our way of life might be 
altered, there was not strong public sentiment that these perceived 
threats were all that serious, let alone that a new energy department 
or energy committee would help stave off those threats.
    The terrorism attacks, on the other hand, literally hit home and 
changed our country and its people dramatically overnight. I am not 
suggesting that the people are clamoring for bureaucratic fixes or 
congressional reforms to save them from terrorists. But they are, in a 
general way, depending heavily on their government, all branches and at 
all levels, to do their utmost to prevent another 9111 from occurring. 
Whether or not they appreciate the need for a separate committee in 
Congress to deal exclusively with the threat is not so important as the 
perception that Congress continues to care and work closely with the 
Executive Branch to address the problem. As a young Congressman Don 
Rumsfeld (R-Ill.) once said, ``Congressional reform has no 
constituency.'' Nevertheless, as I see it, the results of those reforms 
can help effect major policy changes that benefit millions of 
constituents.
    Second, the times have changed institutionally in the House from 
the 1970s. In the early 1970s, notwithstanding some of the House and 
Democratic Caucus reforms to weaken the power of committee chairmen, 
the jurisdictional changes recommended by the Boiling select committee 
ran into a buzz saw of opposition in the Caucus that was led in part by 
affected committee chairmen who Il turn rallied their members to oppose 
the plan Even though many of the ``Old Bulls'' still enjoyed many of 
the prerogatives of power, the democratizing reforms of the Democratic 
Caucus had empowered more rank-and-file members bath through semi-
autonomous subcommittees arid as individual policy entrepreneurs. These 
members were not about to alter a system they had just successfully 
changed and were learning to game.
    Moreover, when the leadership, namely Speaker Carl Albert, saw all 
the opposition forming against the Boiling plan, he stepped into the 
shadows and let his members slug it out in the Democratic Caucus. 
Because the Boiling committee was completely bipartisan, it was suspect 
among Democrats and thus an easy target for those arguing for retaining 
the powers and prerogatives of the majority. Arid, without strong 
support from the party leadership, the plan was doomed to failure.
    Third, an array of special interests was organized and mobilized 
against the Boiling plan, arid the longer the plan was delayed in the 
Caucus, the more these interests had time to pick it to pieces and grow 
the opposition to it within the Caucus.
    Fourth, there was little if any media support for the plan. It was 
not sexy, like campaign finance reform, and thus had no legs beyond the 
beltway, notwithstanding some urgency over the energy issue.
    Fifth, the plan had more losers than winners, and was riot 
sufficiently tweaked to ensure that members at least gained something 
for their losses. To most it was a lose-lose proposition.
    Sixth, the bipartisan membership of the Select Committee did not 
work closely together in building bipartisan support beyond its ranks. 
Instead, the ranking minority member ended up offering his own 
substitute which was different from what the Select Committee had 
reported. They divided and were conquered.
    These are some of the lessons past of experience. The Select 
Committee on Committees in 1979, chaired by Rep. Jerry Patterson (D.-
Calif.) had no more success than Boiling, even though the Select 
Committee had carefully chosen to go the incremental route and confine 
itself to recommending the creation only of a new energy committee. 
Again, the lack of leadership backing and the opposition of the bulls 
and their outside allies thwarted any chance for success.
    Mr. Chairman, you and your colleagues on this Select Committee have 
a chance to make this succeed and thereby demonstrate that history does 
not necessarily repeat itself. You have the benefit of knowing why past 
efforts failed. You have the time in the next few months to lay the 
groundwork for the concept and necessity of a permanent committee by 
educating your House colleagues and building strong, bipartisan support 
among party leaders and members alike. Prior to reporting your final 
recommendation next year, you have the time to make your case in the 
media and with the American people. But, if you wait until September of 
next year to get behind a unified plan and work for it, then I suspect 
it will fail, whether you vote on it in September, October, or the 
following January.
    Your case is good for a standing committee because it is the right 
thing to do and the necessary thing to do. It is right from the 
standpoint of ensuring that Congress holds its own as a coequal branch 
of government And, more importantly, if you want the best possible 
partnership between the branches to fight and win the war against 
terrorism. Do not back down from making the effort because some turf 
might be tom-up and transplanted. And do not settle for a fallback, 
permanent select committee with mere oversight responsibilities. 
Oversight will not matter if it is not directly tied to the ability to 
change policy, The last thing the House needs is more layers of 
bureaucracy and processes on top of existing layers. That will only 
defeat the need to concentrate House resources and efforts for maximum 
results and success
    Thank you, and good luck!

    Mr. Diaz-Balart. Thank you, Don.
    Dr. King.

  STATEMENT OF DR. DAVID KING, ASSOCIATE PROFESSOR OF PUBLIC 
  POLICY, THE KENNEDY SCHOOL OF GOVERNMENT, HARVARD UNIVERSITY

    Dr. King. Thank you very much.
    It is an honor to speak with you today. And you know my 
name is David King. I am an associate professor at Harvard 
University. And I am Director of Political Studies for 
Harvard's Institute of Politics.
    In my 1997 book--it was called Turf Wars: How Congressional 
Committees Claim Jurisdiction--there I tracked jurisdictional 
change from the 1790's through the 1990's. And as for 
jurisdictional reforms, I am really, actually, quite serious 
when I say that you could do almost no better than to lock 
Charley Johnson, Walter Olozek and Billy Pitts in a room, and 
precommit that you will adopt whatever they recommend.
    They don't want to be in a room together because they don't 
want to make enemies with any of you. But you have terrific 
experts here.
    Since you have decided to hear from the three of us, it is 
surprising, actually, that we are all going to say about the 
same thing.
    I will speak briefly about what has happened to 
jurisdictions, and then what I would like to see happen to 
homeland security.
    We should remember that there are several sources of 
jurisdictional legitimacy, and an obvious summary is written in 
Rule 10. These are statutory jurisdictions in the sense that 
the rules are passed by a majority at the beginning of each 
Congress. But almost all turf is originally conferred on 
committees through bill referrals over jurisdictionally 
ambiguous issues. Referrals set binding precedents, and these 
are common-law jurisdictions.
    Since about 1911, the House parliamentarian has been the 
arbiter of jurisdictional disputes, although with the advent of 
multiple referrals in 1974 and really in 1975, and subsequent 
time limit referrals, the speaker has enhanced his ability to 
control turf.
    Importantly, when there are brief bursts of reform that 
change Rule 10, as in 1946, 1974, 1980, 1995, what overwhelming 
happens is that common law jurisdictions are written into the 
rules becoming statutory.
    Your focus, then, should be on the day-to-day rules that 
govern bill referrals, which will lead you inevitably to the 
parliamentarian and his staff.
    The parliamentarian has a host of decision rules 
determining which committee should receive a jurisdictionally 
ambiguous bill, but the outcome of these decisions tend to 
reward committees with the most relevant expertise.
    I want you to think of the parliamentarian as an 
institutional guardian who looks to the long-term interests of 
the committee system. Each one of you may lust for someone 
else's turf, but the integrity of the committee system is at 
stake whenever boundaries change.
    As I said, successful revisions of Rule 10 tend to codify 
what had been going on behind the scenes for years. It is 
virtually impossible to get a majority of members to agree to a 
significant change in their own committee powers. Reforms often 
embrace and then codify the status quo. So the trick then is to 
stealthily become the status quo.
    Furthermore, the political dynamics that bring about a 
reformist majority are very rare, as when a lame duck Congress 
passed the 1946 act, and in 1995 when the Gingrich-Dreier 
reforms passed after Republicans had wandered in the wilderness 
for 40 years.
    Given that caveat, here is what I would like to see happen. 
First, the Select Committee on Homeland Security should be made 
a permanent select committee, along the lines of the Permanent 
Select Committee on Intelligence. I encourage you to read 
through Rule 10 on the permanent select committee.
    Second, membership on the new committee should draw from 
current standing committees with jurisdiction over homeland 
security, including the Committees on Judiciary, Transportation 
and Infrastructure, Ways And Means, Energy and Commerce, Armed 
Services and perhaps Committee on Appropriation.
    Third, Homeland Security Committee seniority should be 
based on time served on the committees contributing their 
members, not on within committee seniority.
    Fourth, the new committee should be given primary 
responsibility, primary jurisdiction, over A, homeland security 
generally, and B, the Department of Homeland Security.
    Fifth, I think Rule 10 should be modified specifically to 
reflect and effectively transfer the jurisdiction from several 
other committees for primary referrals from Judiciary, the INS, 
the National Domestic Preparedness Office, the National 
Infrastructure Protection Center.
    From Transportation Infrastructure, I would take the 
Transportation Security Administration. From Ways and Means, 
the U.S. Customs Service. And then there are multiple other 
areas where I would think that the new select committee would 
get secondary referrals.
    Sixth, and here I know I am spoiling for a fight, but I 
wish that the House would move the Coast Guard to the Armed 
Services Committee. I don't expect it.
    Seventh, and most important, I encourage Speaker Hastert to 
empower the House parliamentarian's office to draft the 
memorandum of understanding that would govern the use of 
multiple referrals for homeland security issues. To minimize 
jurisdictional fragmentation, I recommend that the speaker give 
a new permanent select committee primary jurisdiction over 
homeland security, give secondary time-limited referrals to 
Judiciary, Transportation, Ways and Means, Commerce, 
Agriculture and so on.
    Even today without a memorandum of understanding, the 
speaker has the authority to send initial referrals to this 
current select committee. And I hope that the speaker will be 
aggressive with multiple referrals, so as to set the stage for 
later modifications of Rule 10.
    Finally, let me say what I am tempted to do if a reform of 
Rule 10 looks unlikely. I would aggressively amend the Homeland 
Security Act to transfer programmatic jurisdiction to your 
committee. As Congressman Dreier explained, your current select 
committee has "legislative jurisdiction over matters that 
relate to the Homeland Security Act. As the act is the organic 
statute creating the new Department of Homeland Security, it is 
anticipated that the select committee would be the committee of 
jurisdiction over bills dealing with the new department."
    Properly made, these amendments could predate formal 
changes to Rule 10 and would give the select committee a 
stronger position when arguing on behalf of initial referral.
    I think it is going to take a few years. I don't know if 
you are going to be able to amend Rule 10, change Rule 10, in 
this current Congress. Certainly, I would hope you can 
beginning in the 109th, if you can't do so now.
    I want to underscore one thing one thing that Dr. Thurber 
mentioned. Appropriations is going to be a hostile environment 
for you, and especially with the tendency to waive Rule 21, 
which now is in epidemic proportions on Capitol Hill, I think 
that you are going to have to be very careful dealing with the 
Appropriations Committee.
    And I encourage you not only on homeland security issues, 
but on other issues to stop voting for waivers on Rule 21, keep 
the authorizing committees doing the real work of Congress.

    I am looking forward to your questions, and I hope I can be 
helpful as the House moves forward.

                  PREPARED STATEMENT OF DR. DAVID KING

    It is an honor to speak with you today. My name is David King. I am 
an Associate Professor at Harvard University and Director of Political 
Studies for Harvard's Institute of Politics. My 1997 book, Turf Wars: 
How Congressional Committees Claim Jurisdiction, tracked the dynamics 
of jurisdictional change from the 1790's through the 1990's.
    As for jurisdictional reforms, the House could do no better than to 
lock Charlie Johnson, Walter Oleszek and Billy Pitts in a room, and to 
promise to adopt whatever they recommend. But since you have decided to 
hear from us, I will speak briefly about what has happened to 
jurisdictions, and what I'd like to see happen with Homeland Security.
     We should remember that there are several sources of 
jurisdictional legitimacy. An obvious summary is written in House Rule 
X. These are ``statutory jurisdictions,'' in the sense that the Rules 
are passed by majority vote at the beginning of each Congress. But 
almost all turf is originally conferred on committees through bill 
referrals over jurisdictionally ambiguous issues. Referrals set binding 
precedents. These are ``common law jurisdictions.''
     Since about 1911, the House Parliamentarian has been the arbiter 
of jurisdictional disputes, although with the advent of multiple 
referrals in 1975 and subsequent time-limit referrals, the Speaker has 
enhanced his ability to control turf. Importantly, when there are brief 
bursts of reform that change Rule X, as in 1946, '74, `80 and `95, what 
overwhelmingly happens is that ``common law jurisdictions'' are written 
into the Rules, becoming ``statutory jurisdictions.'' Your focus, then, 
should be on the day-to-day rules that govern bill referrals, which 
will lead you inevitably to the Parliamentarian and his staff.
    The Parliamentarian has a host of decision rules determining which 
committee should receive a jurisdictionally ambiguous bill, but the 
outcome of these decisions tends to reward committees with the most 
relevant expertise. I want you to think of the Parliamentarian as an 
institutional guardian who looks to the long-term interests of the 
committee system. Each one of you may lust for someone else's turf, but 
the integrity of the committee system is at stake when boundaries 
change.
    As I said, successful revisions of Rule X tend to codify publicly 
what had been going on behind the scenes for years. It is virtually 
impossible to get a majority of members to agree to a significant 
change in their own committee powers. Reforms often embrace and then 
codify the status quo. The trick, then, is to stealthily become the 
status quo. Furthermore, the political dynamics that bring about a 
reformist majority are rare, as when a lame duck congress passed the 
1946 act and in 1995 when the Gingrich/Dreier reforms passed after 
Republicans wandered in the wilderness for 40 years.
    Given that caveat, here is what I would like to see happen.
    First, the Select Committee on Homeland Security should be made a 
permanent select committee, along the lines of the Permanent Select 
Committee on Intelligence.
    Second, membership on the new committee should draw from current 
standing committees with jurisdiction over homeland security, including 
the committees on Judiciary, the Transportation and Infrastructure, 
Ways and Means, Energy and Commerce, Armed Services, and the Committee 
on Appropriations.
    Third, Homeland Security Committee seniority should be based on 
time served on the committees contributing members.
    Fourth, the new committee should be given primary responsibility 
for (a) Homeland Security Generally and (b) The Department of Homeland 
Security.
    Fifth, Rule X should be modified to reflect the effective transfer 
of jurisdiction from other committees.
    <bullet> From Judiciary: Immigration and Naturalization Service; 
the National Domestic Preparedness Office, and the National 
Infrastructure Protection Center.
    <bullet> From Transportation and Infrastructure: The Transportation 
Security Administration.
    <bullet> From Ways and Means: The U.S. Customs Service.
    Sixth, and here I am spoiling for a fight, I wish the House would 
move the Coast Guard to the Armed Services Committee. But I do not 
expect it.
    Seventh, and most important, I encourage Speaker Hastert to empower 
the House Parliamentarian's Office to draft a memorandum of 
understanding that would govern the use of multiple referrals for 
Homeland Security issues. To minimize jurisdictional fragmentation, I 
recommend that the Speaker give a new Permanent Select committee 
primary jurisdiction over Homeland Security--and give secondary time-
limited referrals to Judiciary, Transportation, Ways and Means, 
Commerce, Agriculture, and so on.
    Even today, without a memorandum of understanding, the Speaker has 
the authority to send initial referrals to the current select 
committee, and I hope that the Speaker will be aggressive with multiple 
referrals so as to set the stage for later modifications to Rule X.
    Finally, let me say what I'd be tempted to do if a reform of Rule X 
looked unlikely. I would aggressively amend the Homeland Security Act 
to transfer programmatic oversight to your committee. As Congressman 
Dreier explained, your current select committee has ``legislative 
jurisdiction over matters that relate to the Homeland Security Act of 
2002 PL 107-296. As the Act is the organic statute creating the new 
Department of Homeland Security, it is anticipated that the select 
committee would be the committee of jurisdiction over bills dealing 
with the new Department.'' Properly made, these amendments could pre-
date formal changes to Rule X and would give the select committee a 
stronger position when arguing on behalf of initial referrals.
    I am looking forward to your questions, and I hope I can be helpful 
to the House as this process moves forward.

                               Table 4.1 Overview of the History of Bill Referrals
----------------------------------------------------------------------------------------------------------------
                                                      Arbiter of Jurisdictional       Effect on the Committee
                     Committee System Typified by              Disputes                        System
----------------------------------------------------------------------------------------------------------------
        1789-1815   Ad hoc                          Speaker and floor              Floor paralysis as workload
                                                                                    increases

        1816-1889   Rapid growth in number of       Floor majority routinely       Floor paralysis over
                     standing and select             overturns referral decisions   referrals. Jurisdictional
                     committees                      by Speaker                     fragmentation even over
                                                                                    ``settled'' issues

       41890-1910   Stable number of committees.    Speaker makes final call on    Jurisdictional fragmentation
                     Speaker dominance               jurisdictionally ambiguous     over ``new'' issues.
                                                     bills and rewards allies       Committee reports attacked
                                                                                    as biased

        1911-1974   Strong committee fiefdoms.      Speakers relies on             ``Weight of Bill'' decision
                     Chairs by seniority             parliamentarian's advice as    rule enhancees informational
                                                     an institutional guardian      efficiency. More
                                                                                    fragmentation

      1975--present Subcommittee power. Increased   Parliamentarian. Speaker       Intercommittee coordination
                     attention to jurisdictions      strengthened by time limits    increases. Fragmentation
                                                     on sequential referrals        continues
----------------------------------------------------------------------------------------------------------------

    Thank you.

    Mr. Diaz-Balart. Thank you, thank you very much. I 
appreciate all three of you. And I think your testimony, all 
three, was very useful.
    Mr. Wolfensberger, Dr. Thurber was very, very specific with 
regard to his recommendations on jurisdiction as it relates to 
the creation of a permanent committee.
    Now, you did indicate your strong support for the creation 
of a permanent committee. Do you have further, or perhaps more 
specific, recommendations with regard to the issue of 
jurisdiction in order to make that happen?
    Mr. Wolfensberger. Well, I didn't want to presume to put 
the more specific recommendations in my testimony, but now that 
you ask I do have some ideas that you might want to consider. 
But they might raise a stir in certain corners of this 
building.
    I would suggest that you follow the lead that was done with 
the Appropriations Committee when they took the Transportation 
Subcommittee, made that Homeland Security, and took the non-
homeland security-related transportation matters and put them 
elsewhere.
    I would suggest you consider as the basis for this new 
standing committee splitting the Transportation Committee into 
two committees. It is now obscenely large, 75 members, the 
largest committee in the House.
    I would suggest that you take 30 of those members, however 
the leadership wants to do it, bus another 10 members or so 
from other committees with jurisdiction on a new Homeland 
Security Committee, and then have the other 45 members of the 
Transportation Committee on a separate transportation 
committee.
    I think you would be taking care of two birds with one 
stone, and having a more manageable Transportation Committee, 
as well as recognizing the fact that committee now has a 60 
percent, I believe--let me just check on what I had here--34 
percent of the personnel in the Homeland Security Department, 
60 percent of the budget.
    So I think that should be the basis for a new committee. 
But that is one possibility I think you should consider.
    The other thing that I would recommend is that you do this 
in September of next year rather than try and put this through 
in a rules package at the beginning of the next Congress. I 
would have a separate vote on this issue, a separate debate. I 
know you are not scheduled I think to report until, what, the 
end of September, is it? I would do this, though, in September, 
because members are going to be getting out of here first part 
of October for the elections.
    But bring this up in terms of the new Standing Committee on 
Homeland Security, and put it together with just one other 
piece.
    I would recommend that you take the current term limit on 
committee and subcommittee chairmen and change that from three 
successive terms to four successive terms.
    And I would make it clear to all committee chairmen and 
subcommittee chairmen this is the only shot you are going to 
have to do this. We are not going to put this in the next 
Congress's rules package on the opening day. I think if you put 
these together you have a certain incentive in there for a lot 
of people to consider voting for this who might otherwise not 
do so.
    And I am not suggesting this facetiously. I think that 
three terms is far too short once a committee or subcommittee 
chairman has taken over to really get the feel for the subject 
matter, and so on.
    I still like the idea of term limits, but I would change it 
from three successive to four successive terms, and put this 
together with a single vote on a new Homeland Security 
Department in September of next year.
    Mr. Diaz-Balart. Very interesting.
    Dr. Thurber, you talked about, in I thought a very useful 
way, the laugh test of the American people. Couldn't it be said 
that the problem of extreme fragmentation is, in practicality, 
in reality, somewhat solved by what has been done by the 
Appropriations Committee in the homeland security area?
    Dr. Thurber. Yes, when it comes to money matters, and while 
working on various committee reforms on the Hill, I looked at 
the issue of merging Authorization and Appropriations 
Committees, and of course, it didn't go anywhere.
    I think we do need authorizers and we do need 
appropriators, and on the money side, yes, but they don't have 
enough time, in my opinion, to do what a permanent committee on 
homeland security would be doing in terms of authorizing new 
legislation, changing the direction of the department, maybe 
bringing new agencies into it, taking others out, as well as 
rigorous oversight.
    They do oversight, but they don't have a lot of time. They 
have broad responsibilities in other areas of where that 
committee, in my opinion. I think you need a authorizing 
committee, and I think that it should not all be on the back of 
the appropriators.
    Mr. Diaz-Balart. Dr. King, I really didn't, perhaps my 
colleagues did, but I didn't really get the rationale for your 
recommendation of a permanent select committee.
    Could you help me a little bit more on your reasons for 
that proposal? Are they more practical? Perhaps you would like 
to expand on it a little bit.
    Dr.  King. Well, you could actually write it either way. 
You could make it a permanent, you know, full committee, but I 
think you need to be very careful about the membership.
    I wouldn't leave the membership entirely up to the 
Democratic-Republican Caucus. I would specify, as one does the 
Permanent Select Committee on Intelligence, that there is a 
distribution of memberships coming from specific committee.
    And that is really to draw on the intelligence and 
expertise of those members.
    And then the second part of that is to base the committee 
seniority of the new Homeland Security Committee on seniority 
from those relevant committees of jurisdiction. I think that 
way you would be drawing the most expert members from these few 
very important committees.
    So you can call it what you will, but the general model of 
the permanent select committee is I think the right way to go.
    I would also be quite careful, as you all did when you 
created the Permanent Select Committee on Intelligence, to 
limit the size of the committee. Transportation is simply 
unworkable. And the committee sizes tend to ratchet up quite 
frequently, although it has been must less pressure on the 
Intelligence Committee, because it is specified so cleanly on 
the rules.
    Mr. Diaz-Balart. Don?
    Mr. Wolfensberger. Yes, one other thing that probably 
should be mentioned in connection with that, and I am not 
endorsing the permanent select committee idea, but one of the 
advantages it has is that the leadership names the members to a 
select committee. So this does not go through the process of 
being voted on by the caucus or by the floor. And so this would 
give it the status of a leadership committee, which the 
Intelligence Committee has now.
    And they did that for a very understandable reason, because 
of the sensitivity that they have to have on that committee for 
security matters.
    Mr. Diaz-Balart. Very interesting.
    Dr. Thurber?
    Dr. Thurber. I would respectfully lean towards a permanent 
security on homeland security, rather than a select committee 
and to have a full debate over the rule change. And to make it 
and to make the case that Mr. Schlesinger said before, either, 
you know, this is a major problem, either you are with us or 
you are not, on taking the issue of homeland security seriously 
in the jurisdiction of the House.
    Yes, the leadership can appoint people. But the leadership 
changes, and I would like to have it codified in the rules of 
the House to create a full permanent committee, not a select 
committee.
    Dr. King. As I say, you can certainly do that within Rule 
10, create a permanent committee.
    Mr. Diaz-Balart. But I think what you had talked about was 
a permanent select, would be codified.
    Dr. King. That is right.
    Mr. Diaz-Balart. It is an interesting idea. It is very 
interesting.
    Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    And let me thank all three of the gentleman for bringing 
their positions forward on what, obviously, we all agree that 
there is some permanent status for this committee should be. 
The question that we will be confronted with is by the 
naysayers on the other side is why should we do it? Why not 
just leave jurisdiction where they are?
    And I would just like a little further elaboration from the 
three of you on what happens if we leave jurisdiction within 
the other committees? Where do you see us going from the 
standpoint of homeland security? Will Appropriations then 
assert itself even more, or what?
    Dr. Thurber. If I might start, Mr. Chair?
    Mr. Diaz-Balart. Yes, sir.
    Dr. Thurber. First of all, yes, the appropriators would 
gain power. They have, in my opinion, gained substantial power 
over the last 30 years in the House and Senate anyway as a 
result of so-called back-door authorizing, waiving Rule 21.
    But secondly, there is a real reason to have expertise in 
one committee, not only expertise of members, but the expertise 
of staff. If you dissipate the expertise among many committees, 
it is not as effective as an oversight panel, but not as 
effective also as an authorizing panel.
    Secondly, it creates one central place for the executive 
branch to go for homeland security, rather than to--as I count 
them, it is greater than the national journal article and 
others. It is 38 subcommittees and 13 full committees in the 
House, by the way.
    If you have people from the department going to multiple 
committee hearings, because everyone is concerned about 
homeland security, because their constituents are, they are, 
then it is sort of a waste of time, in my opinion, for the 
executive, but also for the Hill.
    And also, there is the problem of setting up hearings. Many 
of the members here have gone off to other committee hearings. 
If you had multiple hearings on homeland security happening at 
the same time, I don't think it is as effective as if you have 
one committee doing that.
    So it is expertise. It is workload. It is timing. It is 
relationship with the executive branch. You have the 
constitutional responsibility to oversee this new department, 
and you are more effective having it in one committee 
primarily, in my opinion.
    Those are the main reasons, in my opinion, if I am 
answering your question.
    Mr. Wolfensberger. And I would just add to that something 
that I emphasized at the beginning of my oral statement, and 
that is that Congress, now more than ever, needs to be a 
coequal branch. You are not going to have that kind of 
coequality if you allow things to remain scattered among 88 
committees and subcommittees of the House and Senate.
    I think there has got to be a central focus here, that 
Congress has to be in on the take-off of this new department. 
And that means closely paying attention to what is going on 
operationally, policy-wise, priorities and so on.
    And that you closely tie policy and oversight together on 
an ongoing basis. And I think this can only be done through a 
single committee.
    Dr. King. I was going to say something that may shock and 
surprise many people. I didn't support the creation of the 
Department of Homeland Security in the first place. But now it 
is a fact that we have it, and it is a fact that there is now a 
tremendous imbalance between the executive branch and the 
legislative branch. And the Congress must catch up.
    I am afraid that some of the people who will oppose the 
single standing committee of jurisdiction here are still in 
their minds back in the days before there was a Department of 
Homeland Security, trying to keep those clientalistic 
relationships that existed before.
    The fragmentation is tremendously debilitating. And 
Congress, as an institution, must step up to the plate, 
effectively tonight.
    By the way, the baseball game, hope it goes well.
    But it has to step up to the plate. And far too many 
members of Congress, and certainly people in the executive 
branch, forget that Article I is about Congress, the most 
important branch as far as I am concerned, in the government.
    And it needs to be on equal footing with the Department of 
Homeland Security through a single permanent committee.
    Dr. Thurber. May I add something related to the attack on 
the United States on 9/11 related to this? After Pearl Harbor, 
we did not have a series of temporary panels. We did not have 
disbursement of jurisdiction. We came together, in the 
executive branch, but also on the Hill, with the central focus 
on events. And the analogy is here probably even worse now than 
it was then in terms of disbursement of jurisdiction.
    I think that the American people want to have a coordinated 
effort on the Hill, from the House and the Senate, on this 
important issue after the fact.
    Mr. Thompson. Thank you, and I appreciate your comments. If 
the committee were challenged to look at it from the standpoint 
of a select committee or a permanent committee, can you just 
tell me which of the two would be your individual preference?
    Dr. Thurber. My preference is a permanent committee on 
homeland security, as I said before. Yes, a select committee 
can have the authorizing and oversight authority. But I think 
that if you are going to vote on changes of jurisdiction 
anyway, let's make this a permanent committee, a standing 
committee rather than a select committee.
    Although I don't feel strongly about it, I do lean towards 
that.
    Mr. Wolfensberger. I would definitely favor a permanent 
committee, as I indicated earlier. A select committee does 
allow the leadership to make the appointments directly.
    I don't think that is needed or warranted in this case, 
because I think members of each caucus would like to be able to 
vote on the members to this permanent committee.
    You have talked about the problems of emergency responders 
in your local districts and so on. You want these people to 
feel accountable to you as members of your caucus, and not just 
to the leadership. So I would favor a permanent committee.
    Dr. King. And I would stick with the testimony that I have 
already given. I think the permanent select committee is the 
way to go, and gives certain stature to the committee. And it 
allows the leadership to be very careful to divvy up power from 
the committees with which it shares jurisdiction.
    Mr. Thompson. Thank you.
    Mr. Diaz-Balart. Thank you, Mr. Thompson.
    Ms. McCarthy?
    Ms. McCarthy. Thank you, Mr. Chairman. And I apologize to 
our witnesses for not being here for your oral explanations. I 
appreciate your written statements.
    I wondered as we--I happen to agree, and thank you for the 
support of making this a permanent select committee. I am just 
curious about how members are best chosen. I wonder if we could 
explore that a little bit. A couple of you have touched upon it 
in your papers, but the idea of how to select who should serve 
and for how long they may serve. That would be worthy of 
extended thought on your part, and I would welcome any comments 
that you have to share.
    Dr. Thurber. If I might begin on that. I touched on it in 
my written testimony in greater detail.
    I think that the members on this committee should come from 
seven committees that have primary jurisdiction over the 
agencies or entities in the Department of Homeland Security. 
But also, beyond that, there should be members from other 
committees associated with the broader mission of homeland 
security. And I have some details on that also.
    How that is done is up to you, but one could do it similar 
to this committee by selecting people with expertise, but also 
with tenure, years of dealing with this and maybe formal 
leadership positions.
    It could become a committee made up of people who are 
leaders on these other committees with the jurisdiction.
    I think they are going to have problems changing 
jurisdiction no matter what, but if you do bring in people who 
have the expertise and the power to deal with things within the 
jurisdiction of the committee, you are likely to build more 
support for it than if you leave a more open system.
    Now, in terms of should there be term limits on members on 
this committee, as there are on the Budget Committee, I am 
against that. I think that people should come to this committee 
and build a career here, as long as they are here in 
Washington. I think that the Budget Committee has term limits 
because the appropriators in Ways and Means and leadership did 
not want that to be a very strong committee in the first place, 
and so they had rotations.
    The Senate Budget Committee, in my opinion, is in a much 
more powerful more effective and more effective vis-a-vis the 
other committees, as a result of having people on there 
permanently, and so I would recommend that for this committee.
    Ms. McCarthy. Dr. King, do you have any thoughts? Because I 
know you speak to it.
    Dr. King. Well, I will just underscore that I think that 
there need to be membership from the committees that Dr. 
Thurber has mentioned. I would probably also put somebody on 
there from Appropriations.
    And then how members beyond that are selected, you could 
have a mixed membership, some chosen by the leadership and some 
chosen by the caucus. You know, the rules are there to be 
changed, the rules are temporary, and you all have it within 
your power to change the rules.
    So even though you tend not to have these kinds of mixed 
membership committees, I do want to underscore again that I 
think it is useful to have committee seniority on the new 
permanent select committee based on service on other relevant 
committees.
    And that helps to create an incentive for the most ranking, 
the highest seniority members, of a committee to come on.
    And I also certainly would not term limit membership on 
this committee.
    Ms. McCarthy. Thank you very much, Dr. King.
    Mr. Wolfensberger. I agree with what my colleagues have 
said, with one caveat, which, and I don't think they would 
disagree with this, if you decide to take this Select 
Committee, for instance, and turn it into a Permanent 
Committee, I would urge against doing it where you have 
committee chairmen of other full committees on it. I don't 
think they have the time to devote to this committee and its 
mission.
    So I like the idea more of having other members from those 
committees, rather than the chairmen, on the new Homeland 
Security Committee.
    I just think you cannot carry on the type of work you are 
going to have to do if you are a full-time permanent committee 
chairmen from other committees on this committee. They will not 
be able to come and devote the time to your activities.
    Ms. McCarthy. Would you think, then, letting the chairman 
of that committee select the member from?
    Mr. Wolfensberger. They can make recommendations to the 
committee on committees, but I think that is a decision the 
leadership ultimately has to make.
    I mean, but certainly, they do now make recommendations as 
to who they would like to have represent their committee on the 
Budget Committee, for instance, or on the Intelligence.
    Ms. McCarthy. Right, thank you. Thank you very much, and 
thank you, Mr. Chairman.
    Mr. Diaz-Balart. Thank you, thank you, Ms. McCarthy, and 
thank you, the three of you. I have enjoyed your testimony 
thoroughly. I am very pleased with this hearing.
    Dr. King, I have to admit that I agree with your view of 
Congress. I think that Congress embodies the sovereignty of the 
American people, and not only because it is in Article I, but 
because of that fact, I think, I agree with your assessment.
    And I thank the three of you. I think it has been an 
extraordinarily fruitful hearing.
    And the hearing is now adjourned.
    [Whereupon, at 12:50 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
